RECORD:

Party Statements Against Interest

Dubinlaw.net Mail - MOUNT AND ANDIA Fwd: 90-Minute Sailing Tour for 2

9t20t2020

Drrlrln

Lrw
rolllcre

Gary Victor Dubin <gdubin@dubinlaw,net>

MOUNT AND ANDIA Fwd: 90-Minute Sailing Tour for 2
Sun, Sep 20,2020 at 3:23 PM

Gary Vlctor Dubln <gdubin@dubinlaw.net>
Bcc: gdubin@dubinlaw.net

Gary Victor Dubin
Dubin Law Offices
Harbor Court, Suite 3100
55 Merchant Street
Honolulu, Hawaii 968'13

gdubin@dubinlaw.net
(808) 537-2300 (office)
(808) 392-91 91 (cellular)
(808) 523-7733 (facsimile)
Licensed in California and Hawaii
Begin forwarded message:

From: Gary Victor Dubin <gdubin@dubinlaw.net>
Date: December20,2019 at5:18:58 PM HST
Subject: MOUNT AND ANDIA Fwd: 90-ttlinute Sailing Tour for 2

Gary Victor Dubin
Dubin Law Offices
Harbor Court, Suite 3100

55 Merchant Street
Honolulu, Hawaii 96813
gdubin@dubinlaw.net
(808) 537-2300 (office)
(808) 392-9191 (cellular)
(808) 523-7733 (facsimile)
Licensed in California and Hawaii
Begin forwarded message

From: Robert King <kinghawaii@hawaii.rr.com>
Date: May 6,2012 al7:37:36 AM HST

To: jim austin <jimaustin@hawaiimana.com>, "dadkins@emihawaii.com Adkins" <dadkins@emihawaii.com>, david flood
<flood333@hotmail.com>, Raphael De Mello <rdemello@belousa.com>, Ellen Corpuz <ellenc@obunhawaii.com>,
SHAWNA Erickson-Watson <shawna@nichemodelsandtalent.com>, Eugene Takahashi <eugene@me.com>, Geoff Graf
<geoff-graf@hawaii.rr.com>, Peter Gellatly <pgellatly@mac.com>, Gary Victor Dubin <gdubin@dubinlaw.net>, Maggie
Foley <maggie.foley@lejardinacademy.org>, Todd Hirai <thirai@hirai-hirai.com>, JOHN HODGINS

i,'3lh::'.'ff

%ill,?ffi

*:itr;ffi

i:lff :"",

'3?3iiil:5?,fiL:?";:@'i;ff
Travis Okimoto <travis@tnblive.com>, NS Hawaii Office
Tracie M <maiavat001@hawaii.rr.com>,
<nshawaii@northsails.com>, Paul Pancho <paulp@obunhawaii,com>, Patrick Bullard <pbullard@heinrich.com>,
'LORENZO SAVAGE (DPD)" <Rob.Savage@usss.dhs.gov>, SHAWNA WATSON <shawnafile@mac.com>, Universal
Manufacturers <info@umhawaii.com>, kimberley watkins <kime711@yahoo.co.uk>, Yukiko Sato
<yukikos@cbpacific.com>, Gino Morrelli <ginojmorrelli@gmail'com>
Subject: Fwd: 90-Minute Sailing Tour for 2
Aloha everyone,
We have a living sociial deal.
Please froward to your friends.
Christmas is only 8 months away.
Good for a year.
Aloha, Bob
Begin forwarded message:

https://mail.google.com/mail/u/0?ik=cf69a962129y;s\,=pt&search=all&permmsgid=msg-f%3A1678404650035860189&dsqt='l&simpl=msg-t%3A16784...

113

Dubinlaw.net Mail - MOUNT AND ANDIA Fwd: 90-Minute Sailing Tour for 2

912012020

From: LivingSocial Deals <deals@livingsocial.com>
Date: May 5, 2012 7:06:39 AM HST
To: kin ghawaii@hawai i.rr.com
SubJect: g0'Minute Sailing Tour for 2
Reply-To: replies@livin gsocial.com
your daily deal Honolulu

I

view deal

I

Unsubscribe

Never nriss a deal, add deals@livingsocial.com to your address book. Learn more

)

your daily deal

ElivingSocial

honolulu

9O-Minute Trade Wind Sailing Tour for

T}
lDr'

2

90-Minute Trade Wind Sailing
Tour for 2 ($30) or 2.s-Hour
Snorkeling and Sailing Tour for 2
($so1

WaikikiRigger
honolulu

Having the wind in your hair and the sun at your back

feels even better when you add water to the mix. Take in
the salty seas with today's deal from Waikiki Rigger: Pay
$30 for two tickets to a 90-minute trade wind sail off the
coast of Waikiki (regularly...

$60
ftoxzo

$30

photo-to-Canvas

view deal

Print

)

to Spend on Clothing

Unlimited Admission, 5 Guest
Passes, Tours, & More >

fiTwo-Year Magazine

$100 to Spend on Jewelry

fizo-eage Deluxe Photo

>

Book

Subscription

and More

$50 to Spend on Clothing

ffuntimiteo Rdmission, 5 Guest fiStoo to Spend on Jewelry
Passes, Tours, & More

16x20 Photo-to-Canvas Print

ffiso

>

and

Two-Year

Magazine

2Q-Page Deluxe Photo Book

>

https://mail.google.com/mail/u/0?ik=cf69a962129y;s\iv=pt&search=all&permmsgid=msg-f%3A'1678404650035860189&dsqt=1&simpl=msg-f%3A16784

2t3

Dubinlaw.net Mail - MOUNT AND ANDIA Fwd: 90-Minute Sailing Tour for 2

9t2012020
More

SubscriPtion

>r

>

to g0-Minute Wine and fi$+O to Spend on Unique Gifts ftSS9 to Spend on Dessert
fiticket
- -Design Event
Gifts

Ticket to gO-Minute Wine and
Design Event )

to Spend on Teddy
Bears

fi$zo

$40 to Spend on Unique

)

$30 to Spend on Dessert Gifts
))

ffTwo Weeks of Unlimited

fi$ao

Child Enrichment Classes

)

tr-ti
''ba

love what you do
We're hiring everywhere. Check
out ourjobs page!

l
I
I

to Spend online on

Clothing

$80 to Spend Online on
Clothing >

Two Weeks of Unlimited Child
Enrichment Classes )

$70 to Spend on Teddy Bears

ffLons

Gifts

give the gift of deals
Find the deal, buy, and send
easy!

-

it's

I

D

livingsocialon

flivingsocial on Facebook

Twitter
Twttter

Hdeals on the go

Facebook

i

lave

l

Mobile

qr.rslrolr? Visit our support portal.

Lr\an!rSoi ral I 1,1,1li I'lr,rY YorI ltvn N!i/ I SLrrlc 2f)(.1 lW:rsirrrltllorl. Lf(I 2(l00li

unsubscribe I manage settings

https://mail.google.com/mail/u/0?ik=cf69a962126yis\ /=pt&search=all&permmsgid=msg-f%3A1678404650035860189&dsqt=1&simpl=msg-f%3A16784.

'.

3/3

RECORDT

Judicial Notice

iPad

?

* 70%t-],

8:13 PM

hoohiki.courts.hawaii.gov
1C21

CM

1113012016 09:00

PLTF'S MOTION FOR SUMMARY JUDGMENT AND FOR
INTERLOCUTORY DECREE OF FORECLOSURE
AGATNSTALL PARTTES (K. DOr) (FR6t22116)

coN

1C05

CM

0111812017 09:00

PLTF'S MOTION FOR SUMMARY JUDGMENT AND FOR
INTERLOCUTORY DECREE OF FORECLOSURE
AGATNST ALL PARTTES (K. DOr) (FR6t22t16, 11/30/16)

RSC

1C05

CM

0412612017 09:00

PLTF'S MTN F/ SUMMARY JDGMT &
FII NTERLOCUTORYDECREE OF FORECLOSURE
AGNST ALL PryS (K DOr) (FR6122,11130116,1118117)

CON

1C21

CM

0412612017 09:00

PLTF'S MTN F/ SUMMARY JDGMT &
F/INTERLOCUTORYDECREE OF FORECLOSURE
AGNST ALL PTYS (K DOt) (FR6122,11i3A116,1118117)

TAD

1C05

CM

1111512017 09:00

PLTF'S MOTION FOR SUMMARY JUDGMENT AND
INTERLOCUTORY DECREE OF FORECLOSURE
AGATNST ALL PARTTES ETC (K. DOr) (FR4126117)

coN

1C05

CM

05/09/2018 09:00

PLTF'S MSJ AND FOR INTERLOCUTORY DECREE OF
FORECLOSURE AGAINS ALL PARTIES FILED 04104116

coN

(K DOr)
Cal.

IM

Type

Priority

CM

12

D.

JJCASTAGNE

ES

**"""COURT REPORTER: EVELYN MIYATA***"** (9'.34:24-9:35:46AM)CASE CALLED WITH APPEARANCE(S) BY LANSEN LEU FOR PLTF ANDy'lUr
HOCHBERG, SPECIALLY APPEARING FOR DEFJS ROBERT AND CARMELITA ANDIA. MR. LEU REQUESTED THE MATTER BE CONTINUED

Video No.

Audio No.

ffi[DtR6DTscoVE'RVFNbA^Pb5srd[rp7rVo.FFHeAnrN'g"r.rboBJEcTloN,coURTcoNTlNUEDTHEMATTERUNTlL
MOVED ON. MR. HOCHBERG RESPONDED TO COURT'S INQUIRY RE'SPECIAL APPEARANCE". CONCLUDED"

O 2015 Hawaii State

Judiciary Hoohiki

v1.0.11

RECORD:

Judi-cial Notice

rs77l

COURT AWARDED ATTORNBYS'
WHAT IS "REASONABLE"?'E
Serrannr-

FEES:

R. Blncrnf

I. INTRooucrIoN

In the ovenvhelming majority of professional

matters handled

by larvyers, fees are determined privately behveen attoroey and
.U.nt. This almost invariably is the case lvhen the representation
does not involve litigation, unless, of course, a dispute over the fee

client.l Even rvhen the representation
"A:nerican
rule" on attorneys' fees, rvhich
d.oes involve litigation, ttre
requires each parry to a iatvsuit to beal the cost of its orvn laruyer, is
fir-ly entrenched 2 and leaves the matter of attorneys' fees to be
resolved in accordance rvith the contractual arrangement betlveen
attorney and client.
The American rule, however, is not rvithout exceptions. In an
increasing number of iitigation contexts, the critical arena for determining rvho rvill ultimately bear the burden for the attorney's
services shifts from the larvyer's office to the courtroom. A grorving
number of federal statutes-more than seventy to date s-either
arises befiveen attorney and

This Article rvas prepared uncler the auErices of the Council for Public llterest
D.cl the vievs expressed herein, however, are solely those of
the au&or.
a

Law, washington,

t A.B. 1967, Cornell Universily; J.D. 1971, Harvard University. Member,
Dishict of Columbia Bar.
r Althoueh many of the priociples discussecl in this Article rvould apply to c€{gs
behveln attotney antl client, those cases are not qeciffcally
involvine ft;<Iisput&
-Rattrer,
here.

tbis Article focuses on those cases rvhere courts are called

"ddr;rr?
tr cletermine whetLer, ancl to rvhat exten! persons other than the client should
""o"
[lieqireil to pay for tle iervices of an attorney with rvhom they have not e.xpressly
contracted.

The American rule often bas been criticized. See, e.g., Ehrenaveig, Raimof CoutwelFees andthe Great Sociatg,54 Ca:.n- Ll 88v.792 (1966);
Kuenzel The AUorneg's Fee: Whg Not o Cost of Litigation?,49 Iorve L. Rsv. 75
( 1963):'McCormidq Counsel Fees and Other E*Veraes of Littgation os on Element
it pariosar,ls lvIErN. L. RBv.619 (l'931); Ii{cf-augblin, The Recooery of Attomeg's
iees: Ait"io Uanaa of Financing Legal Seroices,40 Fonnrrarrr L. Rev. 761 (1972);
Stoebudg Couwel Fees Included. in Costs: -A-Logical DerylloOment" 38 U. Cor.o. L.
Rrv.202 (L966); Comment" Qourt Auarded.4?gryn7ll Fees anil Egual Access to
the Court.'lLe U. Pe. L. REv. 636, 64&55 (L974; Note, Attomeg's Fees: Where
Shalt the-Ultimae Burdpn Lie?, 20 Vewp. L. !rv. 1216 (fS67). See also ?osner,
Ao Eanomic Approach to Legal Procedure and ludicial A&ninistrdion, 2 J. LrcarSroo. 39g 43fu8 (1973). Nonet"heless,-ttre American nrle rvas recently strongJy
reafirmed by the Supreme Court b Alyeska Pipeline Serv. Co. v. Wililenress Socy,
421 U.S. 2AO,2tt:7 (1975). For a discussion of the contrary'English nrle", see
Goodharq Coses, 38 Yer.o L'J. 849 (1929).
3 See note 7M lnfrc & accompanying tert.
2

bursempnt

(281)

282

UNTYERSITy Otr PENNSyLVANIA LAW

&EVIEW

[Vol' 126:281

authorize or mandate courts to award attorneys' fees as part of the
relief granted. Moreover, although the Supreme Court's decision in
a
Atyesia Pi.petine seraice co. a. wilderness society sharply limits
the authority of the federal courts to arvard attorneys' fees in the
absence of zuch an authorizing statute, the Court in Alyeska did
reaffirm the historic equity PoIVer of the federal coults 1e sompel all
of the beneficiaries of a "common fund" recovered or Preserved by
the piaintiff to pay, out of the fund, their proportionate share of the
compensation to rvhich plaintifi's attorn€ys are entitled-5 The Court
also recognized the established equity polver of the federal courts to
tax a losing parry for its opponent's attorney's fees under a "common
benefit" theory, where the parry compelled to Pay fees was in effect
o
the beneficiary of the lawsuit and against a Party who has proceeded
"'in bad faith, vexatiousln wantonly, or for oPPressive !easolls."'7
AJthough the threshold question before the courts in each of
these situations is whether an obliSation for attorneys' fees should be
imposed upon someone other than the contractual client, courts
must determine not only "who P&YS," but also "how much." While
courts often describe their efiort as fee "shifting," rvhat is involved
is more than simply assigning a client's obligation for fees to others.
Und.er either equitable or statutory rationales for fee arvards,
tire amount the client agTeed to Pay the attorney does not necessarily
dercrmine what others should be compelled to pay by the court'
The statutes that authorize a court to award attorneys' fees behveen
parties prescribe that "reasonable" fees shall be taxed-8 What conititutes a reasonable fee may be mor.e or less than the client is
obligated to pay the attorney. It is a determination that ultimately
must be made by the court. Nor is the court simply reallocating
the client's contractual obligation when it exercises its equitable
por/rers under the common fund or common benefit dochines. While
the client's claim against the other beneficiaries in these situations

may be timited to one for contribution for litigation expenses
actually incurred,0 the attorney too has a claim against the bene442LV.5. %0 (1S75).

5rd.257.

o.Id. For example, an unsuccessful

corporate defendant

tive suit can be compelled to pay the attoneeys' fees for

in a stodcholcler deriva-

tle

plaintiff shareholiler

the corporation as a whole bas beneffteil from &e lawsuiL MlIs v. Electric
Auto-Lite Co., gg0 U.S. 375 (1970)7 42t V.S. at 258-59, quoting F. D. Ri& Co' v. Indrxtrial Lumber Co., 4L7
u.s. 116, 129 (L974).
8 See note LM infra & tent accompanying note lL4 infta.
s See note 73 infto & text accompanying notes 72'75 infra.

Jere

ATTOKNETS',tr'EES

!9771

283

ficiaries for the reasonable value of his or her services.xo As rvill be
more fuily discussed below, the attorney's contractual agreement
rvith his or her client rvill not necessarily lePlesent the reasonable
value of those services because it may reflect the attorney's expectation of recovering additional compensation from other beneficiaries
of the larvsuit. Thus, rvhether the court is proceeding under statutory or equitable authority, once it has determined that attorneys'
fees should be arvarded, it cannot escape the task of determining the
reasonable fee to assess.
Part II of this article sketches the current confused and conflicting state of the larv on how a reasonable attorney's fee is determined.
Part III examines lfie nvo distinct sources of judicial Po$/er to
arvard fees-the equitable Porver of courts with a ProPer jurisdictional grant to prevent unjust enrichment, and. the statutory authority conferred by Congress to aid the enforcement of designated
rights, In either context, the discretion of the courts in determining
the proper amount of a fee award is not unlimited. In the equitable
cases, courts must exexcise their porver in a manner consistent rvith
the fundamental purpose of p eventing unjust enrichment. Similarly, in the statutory cases courts are consffiined to arvard fees that
further the congressional intent of promoting fuIl enforcement of
the substantive rights under$ing the fee provisions. Although the
source and purpose of the court's porver in the equitable and statutory contexts are distinct, the analysis in Part III suggests that they
lead to the same result: a reasonable fee in either context is one
that arvards tle attorney the market value of the time and efiort
justifiably expended.
Part IV develops a framework for determining a reasonable fee
that is consistent with the purposes of such arvards. The approach
advanced employs most of the factors considered by courts in the
past, purposely excludes ofhers (particularly the results of the larvsuit), and does so rvithin an analytic framervork that rvould bring a
greater degree of consistency and objectivity to this orpanding
judicial activity.

II. Tsr CirnruNr Srere or rrre Lew
Given the frequency rvith rvhich courts are confronted rvith the
it has upon the allocation of
legal resources, one rvould expect a general consensus to have
emerged on the manner in rvhich reasonable attomeys' fees should
task of fee setting and the impact that

10 See

text accompanying

rl.otes

76-8L infra.

284

UNTYENSIry OF PENNSYLVANIA LAW

REVIEW

[VOI.126:281

be determined. On the contrary, there are nearly as many aPproaches to the issue as t-here are judges. The Supreme Court has
r.o.t addressed the questron,ll and most of the courts of appeals
have left the matter substantially to the discretion of the disaict
courts.12 As a result, many lower courts have con"fronted the problem with littie or no analysis; those courts that have been more
analytical have adopted widely varying approaches. To a great
extent t-he outcome of these cases has depended uPon "the roll of
the dice"-foom court to courc and frona case to case.
Until quite recently the most common aPProach taken by the
lower.o,ltt" in setting fees was no approach at all. A revierv of ail
decisions reported in volumes 38+94 ol Federal Supplernent (197+
1975) reveals that of the rwenty-eight reported cases involving a fee
determination, thirteen contain absolutely no articulated reason for
the amount awarded. For example, in Canterbury a. Di'ckr\g a case
brought under the Fair Labor standards Act of 193814 which authorizes the award of reasonable attOrneys' fees,ls the court merely
stated that "[t]he court finds that $2,750.00 is a fair and reasonable
attorney's fee for legal services rendered to and for the Plaintifis by
their counsel in the suit; and Plaintiffs are entided to recover such
10
reasonable aftomeY's fee in such amount from the Defendants."
On several occasions, however, tihe Supreme Court bas dealt with a party's
e"[tlement to recover iees in i particular case. Se?? e.g,- Alleska
o,
"tto*eiSlr*. Co. v. Wilderness Soc'v, Al V.S. %0 (1S7!); F D'-Rich Co' v'
np"U""
i"-a*Guf i,,t*f er Co., 4tl U.S. 1LO (t9l+); Northcross v. -Memphis Bd. of Educ.,
at6 1.115. 696 (192a);-Hall v. Cole, 412 U.S. 1 (1973-); lvlills v. Elec^{i: Auto-Lite
11

Parlc Enterprisq-sr ^39-0- u.s. 400
a;; 396 u.s.'gzS'(rs70l; Nermaan v: -Piggi
iig'e8t. f't"ir.l.r-ann'Distiiline Corp. v. Maier Brewing Co.,386 U.S.714 (1967);
R.R. v. Pettus, 113
i;;;;; v. Ticonic Nat'l Ban[,307 u.s. 161 (1939); Central
527 (1881). The Court has
ifsl-ilO (1885); Trustees v.'Greenougb, 105 U.S.proper
amount of a fee award'
;;;; rsd;it-considerecl a question involving the
horvever.
r2 The latitude conferred upon the ilistrict courts

in makiag fee cleterminaHons
First Circuit has left the manner in
lbe
the
circuits.
varies considerably among
-almost
entirely to the discretion of tbe lower courts, See
*[i"tr l"* are to be set
219, 221 (lst Cir. 1974) ("The $eciffc a-ount of
F.2d
495
Vite]<,
H;i[ ".
;i;;;'f"e" it -ltUi" the judge's discretion."). Several ctucuits have enumerated
lists of'factors which tle district court should consider in setti.ng fe*s, see note 18
in*ta & accompanying tot, ancl consequently have taken the view that "an analysis
f," tl. dis6icl court-which encompasses lthose enumerateil] considerations is most
,ir*udtt, an aualysis well wi&in &e bouads of Aial court discretion," Waters v.
iVir.o*i" Steel \fuorks of Intl Hawester Co., 509 F.2il L309, 1322 (7th Cir- 1974),
cei, ilenied,425 V.5.997 (1976). A ferv,courts of app-eals" most particulatly th.
fhita Cit*it, have been nore rigorous i:l theii review of fee alvar-cls, enumerating
a oarticular -avti"A framework for fee determinations anil conffning the Iorver
to that analysis. See r:Lote 28 infta"oirtsls385 F. Supp. 1004 (S.D. Tex' 1973).
1429 U.S.C. $$201-19 (1970 & Supp. V 1975).
16rd. $e16(b).
10

385 F. SuPP. at 1009.

ArronrvDvs'tr'EEs

79771

285

Mote recently, most of the courts of appeals have recognized
that the fuilure to articulate the reasons for a particular fee arvard
renders the district court's determination effectively unreviervable
and constitutes an abuse of discretion.l? Several of these appellate
courts have adopted lists of factors to be considered by the trial
judge in making a fee determination.ls The list enumerated by the
Fifth Circuit in Johnson a. Georgi'a Highwa2 Express,Inc.,ls rvhich
in turn rvas based upon the guidelines for private fee arrangements
set forth in ttre American Bar Association's Code of Professional
Responsibili,ty,zo is most frequently cited. The court listed trvelve
factors courts should consider in determining reasonable attorneys'
fees:

1) the time and labor required;
2) the novelty and dificulty of the questions;
3) the skill requisite to perform the legal service properly;
4) the preclusion of other employment by the attorney due
to acceptance of the case;
5) the customary fee;
6) rvhether the fee is fixed or contingent;
7) time limitations imFosed by the client or the circumstances;
S) the amount involved and the results obtained;
9) the experience, rePutation, and ability of the attorneys;
i0) the "undesirability" of the case;
11) the nature and length of the professional relationship rvith
the client; and
12) arvards in similar cases.zl
r7 See- e.a.. Kerr

v.

Screen Extras Guilcl, Inc., 528

F.zd 67' 69-70 (9th Cir.

rc7il-;;;.-aZii"a.495 u.s,95L (1976); Monroe v. Bd. of comm'rs of Jaclson,
ioi-fi.2a ros. I09-(6th Cir. 1974); Evans v. Sheraton Park Hotel,503 F.2d 177,
iSiSS f p.C.-Cir. 1b74); Waters v. Wisconsin Stee1 Works of Int'l Hawester Co.,
soz f'.za feog. 1322 (ifh Qir. L974), cert. ilznieil,425 v.5.997 (1976); Deboit
Cti"""U Corp, 495 F.zd 448, 473:74 (2d Ctu. 1974); Jolnson v. G-eorgia

".
riinhru",o Expresl,-Inc., 4S8 F.za 714,720 (stb Ctu 1974);

Lirdy Bros. Bldrs. v.

Affi;"a" Riliator & Standard Sanitary Coq., 487 F.2d 161, 170 (3il Cir. 1973).
t8See. e,s.. Kerr v. Screen Extras Guild,526 I..zal 67' 70 (9th Cir. 1975),

cert. i!,enieil, idS v,s.951. (1976); Doe-v. Pgelker, 515 F:2-cl 541, 549 (8qh cir.
i6iSh rUoi-e v. Boartl of Commrs -of J1e$03,-505 F.2tl-105,-1_09-(6,th Ctu
iszai, wuteo v, wtuconsio steel works of Intl Harvester co., 502 F.2d 1309,

lizz"gtA Cir. 1974), cert. ilenled,425 U.S. 997 (l'976); Johnson v. Georgia
ffigUtuiy Express, Inc,,488 F.2d.714,717-19 (5& Cir. 1974).
1s488 F.zal7L4,7I7-Lg (sth Ctu. 1974).
20ABA Copp on PnorsssroNer, Rrsronsmtlrrs, Drsceroranx Rur;s %106(8).
21 488 F.zd at 717-19. By no means have the relevaut factors listed. by various
courts been uniforo. Compare id, utith Arenson v. Board of Trade o! Chicago, 372

286

UNMRSITv OF P.UNNSYLVANIA LAW

HEVIEW

[Vol' 126:28I

Simply providing the lower courts rvith an exhaustive checklist of relevant factors, horvever, has done little to eliminate the
confusion. Many courts have done little more than give lip sewice
to their consideration of such factors. Meyers a- Clearvi.ew Dodge
Sales, Inc.22 is typical. After determining that a fee arvard rvas
appropriate under the Truth-in-Lending Act,23 the court stated:

In determining the amount of the fee in this case, we have
referred to thb factors outlined by the Fifth Circuit in
a Titie
,
Johnson v. Georgia Highway Express, fnc.,
exand
efiort
of
the
time
aware
further
VII .use. We are
was
occaof
which
much
counsel,
pended by plaintifi's
iioned by the defendants' strenuous and able defense'
Considering all of these factors, plaintiff is entitled to recover the zum of $3,000 as a reasonable attorney's fee'%
Other courts bave discussed some or ail of the facto$ seriatim and
to a no less conclusory judgment.es
then jumped
'ih. -futtdumental problem with an approach that does no
more than assure that the lower courts rviil consider a plethora
of conflicting and at least partially redundant 20 factors is that it
provides no analytical framework for their application. -It ofiers no
i riaurr.. on the relative importance of each factor, whether they
TT'

v' United Shoe
F. Supp. 1349, 135L52 (N.D- l]1.\g^7q-yPlranover Shoe,
i,i".Uff"ry c"tb .,, uS f . Supp. 258, 302 (M.D. Pa. 1965), oggqgd-on other.gro.unils,
ifi"Fii'ia-lda cr'. rcaii, afd in pirt, rctld,in part, 1ez u's' 481 (t9681 and

Il n" Otoftky,'50

F.zd 925, 927 (S.D'N'Y' 1931')'

223g4 F. Supp. 722 (E.D. La. 1974), affd,
grounds,53g F.zd 511 (5& Cir. 1976).

in part, teo'd in part on other

2315 U.S.C. $ 16a0(a)(2) (1970) (cu$ent version at 15 U.S.C. $ 16a0(a)(3)

(Supp. IV 1974)).
24384

F.

SuPP. at 729.

25See, e.g,, Kelsey v. Weinberger, No. ^1660-73 (D.D$. April 8' 1975);
NaUo"J 6undd of Community Mental Health Centers v. Wejabe-rger, 3_8! F. Sgnnl
ab1.-g95-9t (D.D.C. 1974), ieo'd on other grounds sab nam. National Council of
Cir. 1976);
b;;Gb'Mental Healt}-Centers v. Matthervs,546 F2d 1003 (D.C.
19p); TWA v'
Iti""lr * 'ttttper & Row Publishers,-In9, -!{ f'R'P.-221 (N'D' Iil'
H"qLL. siz F. Snpp. 478 (S.D.N.Y' 1970), madified' on othBr. grounds, Mg F'zd
ii]st'ct L97D.-iet:'d' on other grounils,4og U.s. 363 (1973) (in a case involv-

r*'" izirnillioniee awarcl);

Hanover Shoe, I-nc. v. Uniteil Shoe Machinery Corp.,

grounds, 377 F.2d
ia? e. S"pp. 258, 302-03 (M.D' ?a. !965), oacated on othet
7io lga cit-. Lsoi), afd in part, reo'd in part, 392 u.s. 481 (1968).
26For example, &e "time and labor requireil" (_Iohnson factor 1) usually will
srrbstanUally reflJct'the'hovelty anil &fficulty of the questions" involveil in the
case (Iohnson

factor 2).

19771

ATToaNEYS',FEES

287

are to be applied difierently in difierent contexts, or, indeed, horv
they are to be applied at all.2?
A ferv circuits recognize that such an approach is an invitation
to further confusion and have adopted a Particular analyrical framervork to be used by lorver courts in setting fees.28 While this development should bring some measure of consistency to fee calculations in those circuits, the approaches adopted are by no means
uniform; moreover, these formulations contain significant defects.2s
The most significant disparity in the manner of fee setting is
benveen th.ose cours that have stressed the results achieved (the
output of the larvsuit) and those that have stressed the amount of
time expended by the attorneys (the input of the attorneys). For
many courts, particularly rvhere damages are recovered by the
plaintiff, "[t]he key criterion for the arvard of couruel fees is not
the time spent but the amount of recovery." 30 M*y of these
courts simply have arvarded counsel a flat Percentage of the recovery 31 Otlers, rvbile rejecting the idea of applying a Percentage
27 As a consequeDcg difieren! courts hav_e _applieil the same_factor in contrary
.,rr^.r.. Fo, e*a-pli. some courts have vieWed tle fact that benefits were conferreil
oo-th" general pubiic by ttre litigation as a_consideration that should increase the
lorver it.
;;;d" iuhil" oiU"r courts have seen tlis factor as one whiCh shoulil
CoioLru. for esample the opinion of the court of appeals in Kiser v. Huge, 517
e.Za Mg. 121t4 @.C. Cir. 1974), uith the district court opinion it afi:metl in
tUir top*t" Kiser v. Miller, 36! F. $uppr,l3!.,^1319, 1320- (D.DC. 7973)' modified
(D.C. Ctu. 1974)' Several courts have
iU nol*, K;*"t v. Huge, 517 F.zd l2B7
of the contingent nature of ite representaHon only rvhen the clent
iuk"o
to Bay ttre attorney a percentage of the recovery if successful, lvbile other
asree,l""oouot
n"uu iecognized a contingency factor rvhenevel the attorney has taken tbe
"6"tt
case rvithout a Suatantee of full paluent. Compote Jindy Bros. Bldrs. v. American
Radiator & Standarcl Sanitary CoD., 540 tr'.2d 104 117 (3d Air. 1976) aith
Johnson v. Georgia Highrvay Express, Inc., 488 F.zit 714 718 (5th Cir. 1974).

2s Tbe initiative in this direction has come &om the Thfud Cfucuit. In tlree
recent cases it has prescribecl an approacb that awarcls fees baseil upon t-he noroal
hourly rate for tle-time espendeil, "anjl'.tedl for-ttre contingen_cy of ttre case ancl
the quality of the attomey's effort as reflecteil in the court's eva]uation of the rvork
it otiew"{ tihe eomplexity of the issues, anil tle result achievecl. Sae Lindy Bros.
Bldrs. v. American ha&ator & Stanclard Sanitary Corp., 540 F.zd 102 (3d Ctu
1.976); Merola v. Adantic \icMeld Co" -51{ F.2d 165 (3ril Cir. 1975); !.i1ily
Bros.'-3lilrs. v. Arnerican Radiator & Stanilaril Sanitary Corp., 487 F.2cl 161 (3iI
Cir. 1973). Tbe Lindg approach has been adopted by the Dishict of Columbia
CircuiL National Treasury Employees Union v. Nixon, 521 F.2d 317 (D.C. Cir.
1975).-and" at least for certain cases, by the Eighih Circuit, Grunin v. Internabional
House of Pancakes, 513 F.2d 114 (8th Cir.), cert. denieil,423 U'S. 864 (1975).
The Seconrl Circuit has outlhed a similar, although not idenHcal approach. See
Deboit v. Grinnell Corp., 495 F.2d 448 (2d Ct. 1974).
2e See text accompanying notes 61-68, 83-91 & ]4452 infta.
30Feder v. Harrington, 58 F.R.D. I7I, L77 (S.D.N.Y. 1972).
3! See, a.8., Uniou Carbide & Carbon Co_rp. v. Nisley, 300 F.2d 561, 587 ( 10th
Ctu. 1961), appeal dismisseil sub nom. Wacle v. Union Carbide & Carbon Corp.,
371 U.S. SOf (fSOZ); Fecler v. Harrington, 58 F.R'D. l7I, 177 (S.D.N.Y. 1972);
Rosenfelil v. 3lack, 56 F.R.D. 604 (S.D.N.Y. L972)t Philadelphia Elec. Co. r'.
Anaconda Americar Brass Co., 47 F.R.D. 557 (E.D. Pa. 1969).

288

UNMRSITy OF PENNSYLVANIA LAW

REVIEW

[Vol' 126:281

to tlre recovery, have taken the size of the darnage arvard iuto consideration in arriving ar rhe appropriate hourly rate to apPly against
the lawyer's time. Arenson a. Board' of Trade of Chicagosz b
illustrative of this latter approach. Ajter examining the number
of hours expended by the plaintifis' attorneys in obtaining a settlement of thal private antitrust action, the court multiplied the hours
spent by foui times the attorneys' normal biiling rates, explaining:
.;Thir iourc's award of four times the hourly rate of the plaintiffs'
attorneys is meant to adequately compensate them for initiating this
significant litigation and negotiadng such a beneficial settlement
for the class . . -88
Those courts that have vierved the results achieved as
the essential ingredient of the fee deterrnination have varied
dramatically in their ultimate judgment of horv much of the
recovery the attorneys should receive. Bven in cases of a similar
nature, the range has been enormous' For example, in eighteen
private antitrusicases examined,e the fee a'rvarded ranged from five
io sixty*even percent of the treble damages or settlement.sE Any
s2372F. Supp. 1349 (N'D' Ill' l'974)'
33rd.

,"

1359.
84 (Percentages

following each case-indicate the court awarded attorneys'fees
ou.")ii'nJ-j-;d[ d;;ges or settlemenJ.) Sea Perkios v. Standard Oil of

4J2-g:s'-910.^(1e79) .(1295):
ibft cir.), cert.. 4p;ied,Sef
A4fi#;?i4 r.zilliasFiim
F.zd 190 (€th cir.), cert.
Corp..'v. G_otilwyn,
Fox
i;";;;tt cl"ru.y
co' v' Gemax corp', 314 F2d
;;;;';f s1g nslireg-irsoa) ($t); A. c'.I.4* (24%);
u-nion c3rb-i{9 & carbon

65ij'i?riCi'l', cii.-dp"t,a,'3i5 II:s..q1-6.(ry.ffi.)
(10&
apn39l-dismts-sed?-31L-u's'

;;;';Ni'ii,i',

soo F.zd 561,587

-c,).

801

tr'i3??;,";l'3;;?l%t11,3!r$$i{i3}
w'l;j!:ii:lr'.:;1'"tffi
y-. Plgg-qa:^1}e{e1 Co5n.
Ci.' tsiil-ilir} Twentieth Centurl'--Fox- {ih
-9o,'p.-

(1952) (-9s);-Milwaukee
it4 rze 84'6, elig tsth Cr.), cett.F.zd
8e-nt9$ s!p-u.S. e42
56e. (7rh cit'), 9e!'-Qeni9!', 342 u's'
cfi. i. ioJ*, rnc., rso Co. 56L
T;;;;
v. Bruce's Juices, 187 F.2d 919,920 (sth
6ruilrssri tgz)' American Can

7ii.l-ii"J"t'd,imNsed,942 U.S. 875 (195I) (I9%); Woode E4eloration & ProJ,ililie"Uo.-". Alcoq [1973] Tnapn Rsc. tul (cCH),, 1i-74,668 (20%); Pacigc
r--^,"i- a*i.rtltrrral Exoort Ass'n v. Sunkist Growers, [1973] Tnaor Rec. nEp.
&EHi;"1f7152g (287;)t Vandervelde.v. Put and Call Brokers &

Dealers Ass'n, 344

it. a;;."157 (S.D.N.Y. 1972) (50%); Tllinois v.- Harper & Rorv-?ubli"hers, Inc.,
1972) (33%); Hardold Hosp. v. charles Pffzer & Co.,
# F.fri5. 921'(N.D. Iu.(CCH),
l[74,112 (10%); TWA v. Hughes,3l2 F. Supp.
iis?zi i"""" Rrc. Bsp.
i?i-?ls.o.Ni \970\. modified on other grounds, 449 F.zd 51 (zal Cir.), reo'd on
;;h.;-;"i;";d", 409'il.s. 363 (1973) (5%); Hanover.shoe, rn-c. v. united shoe
i4""f,ifr" C"rp.,245 F. Supp. 258, 303 (M.D. Pa. 1965), oacoted..on oth.er grounds,
!?7fltd li6 i1d Cir. 1967), offd in part on other-grounds, reo'd. i, pgt on other
g92 Ii.S.481 (1968) (15%); Bal Theatre Corp. v. Paramount Film DisHb.

"ri""a".doo F. Supp.70S (N.D. Cal. 1962) (13%);
8"""-

Noerr Motor Freight v. Eastem
F. Supp. 163 (E'D. Pt- !958), af6, 273 F-zd 218
ibd Crt 1959), rco'd' on otlrcr grounds,365 u.S. I27 (IsoI) (3L%).

nii

itoiilunts io-nference,

166

s6The Clayton Acb 15 U.S.C.

$

15 (1970), proviiles_that a-zuccessfll plaintifi

in a orivate antigust action "shalf' recover ttrree times his or her damages "anc[
of suit, including a reasonable attorney's fee." As a result of that and
thu

"irt

ATTO&NEYS',FEES

79771

289

attempt to discern a rational basis for the dramatic variation in
these cases-based upon the difficulty of the case, its importance to
the public, or even the hours devoted by the attorneys*is fruitless.3s
Although the result achieved has been the most important
factor in determining counsel fees for many courts, other courts have
considered the results of the larvsuit as supplementary only,sr and a
ferv courts have essentially ignored. the results entirely.e8 For the
latter courfs, the perceived essential task is 16 semP€nsate the attorneys for the time they devoted to the lawsuit.3o l{olever, even
among courts that have adopted the time-spent aPProach there has
been substantial differences in analysis, leading to rvidely disparate
results.
o16s1 5imilar provisions in t:he antitrust latvs, settlements in these cases ftequently
attomeys' fees. Grunin
i"a"a" * agieement by tle defendant to pay reasonable(8th
o-Intu-"Uoi4 House bf Pancakes, 513 F.2d 114 118
_Cir.), cert, d.pnied,
isg U.S. Ga (19?5); Merola v. Atlantic Richffeld Co., 493 F,zd 292,294 (3d Cir.
1:35G51

(N.D.
f9iajt-Aru*on v. B6ard of Traile of Chicago, 372 F. Supp. -I'349,
coulsel
fees
regularly
arva'll
courts
no
such_agreement,
tlere
is
Where
n. lSil+|.
funil' al$ougb
i"-r"tti6""t" of private antitrust class actions out of the common
articiating ttre basis of their authority. See, e,g', Dehoit v- Grinnel
""i
T'indv 31ot- Bldn. v. American Ratliator
6"-.."ti""ui
+s5 F.2d 44s, Zos (sa
'487 cir. 1974);
F.zd' 161, 16466 (3d Ctu ].973); In Re Coorclinated'
Sruitary borp.,
t 6[.ira"ta
F;;t lJ proceeilingi in An6biotic Antikust Actiors, 410 F. Supp. 68Q 689-90 (D.

Minn. 1975).
s6 The almost unconkollable impulse of some courts to determine counsel fees
based uoon the amount of the recovery is well illustrated by Colson v. Hilton llotels
C"-.. Sg F.R.D.324 (N.D. IlL 1972), a private aDtitrost case that was settlecl for
rUgltiy in excess of $5 million. After ostensibly reiecting ttre idea of _calculating a
i"J Uasea uBon a percentage of,the recovery, s_uggesting instead that "tbe priolary
consideraUoi ougbl to be the dollar value to be atbibuteil per hoq o-f sen'ice,"
ia. gZ7, the court tu:aed to the number of hours that the-attorneys had spen! o1
The court then stated 'tlat $152.29 per hour is a fair arvarcl of
ifru
""r.-O.ZgS.
the total amount arvarcled for 6,238 hours coming to $95O000. This
"omnensation.
is about 18.5% of tle net settlemeot sum . , . ." Id. 329. It ts unlihely
""i.i"t
t}u court determinecl, in the Srst instance, that the value of an hour of these
ih.t
services was $152.29. Rather it seems clear tlat, in sllite of itself, the
^itoto"vt'
co"ct"ded that $950,000 was a reasonable sbare of the settlement, ileriving
"ourt
houtly rate ftom arithmetic rather tlan the markefiilace.
G
3r See. e,g,, Linily Bros. Bldn. v. American Ra&ator & Standard Sanitary Corp.,
540 F.2iI ios, ifS (5d Cir. 1976); National Treasury Emplovees Union v. Niron,
521 F.Zd 3L7, 32.2 (D.C. Cir. 1975); Grunin v. lrternational House of Pancakes,
519 F.zil It4,l29 (Sth Ctu.), cert. dpnied,423 U.S. 864 (1975); Merola v. Atlantic
Richfield co.; 493 Fqa 292,298 (3d Cir. 1-974); Lintlv Bros. Bldrs. v. Americau
Railiator & Siandarcl Sanitarv Cotp,,487 F.2d 161, 168 (3d Cir. 1973).
88 For examplg rvhile the Second Cfucuit did not qleciffcally rule out consiileration of tle results as one of the 'bther, less objective factors lttat] can be
introiluceil into the calculus," Detroit v. Grinnell Corp., 495 F.2d 448, 47L (2d
Cfu. 1974), it proceecleil to outline a framervork of analysis which did not include

a

cousideration

of

results.

The Ttircl Circuit calls rhi( tle 'lodestar" determination, to rvhich adjustcan
be macle in certain circumstances. $ss T .inly Bros. Bldrs. v. Arnerican
ments
Radiator & Standard Sanitary Corp., 540 FZd 102, 112 (3il Cir. 1976).
sc

290

UNI.RSI?] OF

PENNSYLVdNIA LAW

REVIEW

[Vo1.126:281

The first determination for these courts has been the time
expended by the attorneys. Some courts have rigorously reviewed
the time asserted by the attorneys and the manner in which it was
expended; ao others have engaged in rvholesale markdorvns with
little explanation of why the time claimed was excessive.al
In deriving the hourly rate to be applied to the time allowed,
courts most frequently start rvith the attorney's normal billing rate,
or the prevailing rate for similar legal services in the community.
ThaL rate, however, has been discounted in some contexts and substantially narked up in others. ft is not uncommon, for example,
for courts to deflate the hourly rate for experienced trial attorneys
in civil rights and environmental litigation to as low as thirry

rvhile raising the rate in private antitrust and securities
cases to as much as five hundred dollars per hour.ag
Some courts have based the hourly rate multiplier (which may
range as high as 400/o of the normal tateu) upon the risk of nonrecovery;46 others, upon the results achieved.ao Moreover, regardless of rvhich factor is being rewarded by inflating the hourly rate'
the process of selecting an appropriate multiplier has been essentially arbitrary. In a recent antitrust class action involving the
drug industry, for example, fhe court, after determining the number
of hours and. the normal billing rates for the various attorneys and
law firms involved, multiplied the houriy comPensation by a "risk
dollars,a2

osee, e.gu T.indy Bros. Bldrs. v. American Racliator & standard sauitary
-s"pp.
eds (E.D. Pa. 1974), oacoted, 540 F'zd L02 (3d cir. 1976).
cotp.,
4r See, e.g, Parker v. Matttrervs, 411 F. Su.p-pr-ry59-r 1991. (prP-.c. 1976);
'de'r.
f,arino6v.'Uniied St"to, 365 F. Supp. L40, L4647 (D.D.C. L973), ofl:d,533 F.zd'
itoT-ib.C. Cir. 1976); Kiser v. Miller, 364 F. Supp. 1311, 1318, 1320 (DD.c.
igisl. radified on oth'er grounils sub nom' Kiser v. Huge, 517 F.zd 1237 (D.C.
Cit.-ibZal; tloit"d f'etl'n of Postal Clerks v. United States, 61 F.R.D. LB (D.D.C.
r.s73).
42See, a.€u Souza v. Travisogor

5I2 F.2d

11372

71404! (7sE 9E),

oacoted,

42g U.S. rioS'(isZS); Reil School House v. oEO,386 F. Supp. 1177, 1199 (D.
Minn. 1974); Gilpin v. Kansas State High School Activities Assn, 377 F. Supp.
i23s. fZfs ib. fi". 1974); Kiserv' Miller,364 F. Supp. 1311, 1.318, 1320 (D.D.c.
t97$. modifred on other grounils sab nom, Kiser v. Huge, 5L7 F.zA J237 (D.C. Cir.
ieZai, Wv"'ft v. Stidoey, 3M F. Supp' 387, 410 (N.D. AIa' 1972)' afd in part,
rco'd'in iart on other grounds swb nom. Wyatt v. Aderholt, 503 Fgd 1305 (5th

ctu. 1974).

43 See, a.go In Re Coord;.ated Pretrial Proceedings in Antibiotic- Antitrust
Actions. aiO F- Supp.6BQ 694 (D. Minn. 1975); In Re Gvpsum Cases,386
F. Supp.959,967 (N.D. CaI. 1974); Arenson v. Board of Traile of Chicago,372
F. Suirp. 1349, 135&59 (N.D. Ill. 1974); AiLy of Philadelphia v. Chas. Pffzer &
co., 3aB F. s"ip. 454,485 (S.D.N.Y. 1972).
44See, e,Bu Arenson v. Boaril of Trade of Chicago, 372 F. Supp. 1349, 1358-59

(N.D. r]l. 1974).
46 See,
46 See,

e.g.,In Re Gypsum Cases, 386 F. Supp' 959, 967 (N.D' CaI. 1974).
e,go Arenson v. Board of Trade of Chicago, 372 F. Supp. 1349, L358-59

(N.D. IlL 1e74).

A?TONNEYS'FEES

L9771

291

facror" of from 1 to 3.az The court never explained horv it distinguished befiveen a multiplier ot 2.5 and one of 3. Nonetheless,
for the senior attorney in the case, the difference befiveen the ma-ximum "overall rating" of 3 and the minimum of I rvas over $2
million in fees.as
Another coutmon approach of courts focussing primarily on
the time expended by the attorneys is the addition of a "bonus" or
"incentive premium" after calculating the fee based upon a normal
hourty rate.4o But even these courts have difiered sharply on rvhat
is being rervarded by such a bonus or incentive. In Ki,ser a. Mi'IIer,6o
the courc arvarded. the attorney a LA/o bonus rvith no clear explanadon of rvhy the rervard was justified. In Pealo v. Farmers
Ilome Adrninistrationgr the attorneys rvere arvarded a 50/o bonus
based upon the results achieved. In Lindy Bros. Builders a. Americon Radiator dr Standard, Sanitary Corp. (Lind'y lllaz *" Third
Circuit affirmed a bonus ot 70A/o based upon the risk involved in
the case and the unusually high quality of rvork performed by the
attorneys, In Nati.onal Associ'ation of Regi'onal Medical Programs,
Inc. a. Weinberger 53 t}e court awarded piaintiffs' attorneys a 100/o
bonus based upon an amalgam of factors, some of rvhich already
rvere reflected in the amount of time spent or the normal bilting
rate. The bonus incorPorated
the benefits conferred upon the class, the benefits conferred
upon the public, the contingent nature of the fee arrangement, the difficulty of the issues and the skill demonstrated,
the preclusion of other employment, the incentive fee or
a?

Ln Re

Coorclinated.

?retrial Proceedings

in

Antibiotic Antitrust

Actions

(Douehboy Industries), 410 F. supp. 680 (D. Minn. 1975). Alttough &e court
descri[ed its mulUpfi"t as a "risk factor," its applicaHon of the mul6plier to various
larvyers and tyg es;f work involveil in the case irdicates that the court in fact rvas
,pp'lyr"g rvhaf it at one point described as an 'bverall rating" to the various
Iauyers'-rvork and contribution. Id. 697.

48rd.694.
49 See, a.g,, Linily Bros' Bldrs. v. Aaerican Radiator & Standaril Sanitary
Coro.. 540-F.2d fOz, tfg (3d Cir. 1976); Pete v. UMW Welfare & Retirement Fund,
5L7 f.zd,1267, !272 (D.C. Ctu. 1974); Lincly Bros. Bldrs. v. American Radiator &
Standard Sanitary Corp', 487 F.2d. 161, 168 (3d Cir. 1973); Stanford Daily v.
Zurcher, 64 F.R.'D. 680, 687-88 (N.D, Cql' 1974), offd,ssq]:2d 464 (9ttr Cir.

1977): Larino$ v. United States, 365 F. Supp' I4O, L4647 (D.D.C. Ig73), affd.,
5g3 ir:zd 1167 (D.c. cir. 1976); United Fedn of Postal Clerla v. Uniteal States,
61 F.R.D. 13, 2i (D.D.C. 1971); Blankenship v. Boyle, 337 F. Supp. 296, 302-03

(D.D.C. 1e71).

60364 F. Supp. 1311, 1318 (D.D.C. 1973).
6L 4tZ F. Supp. 561, 567-68 (D.D.C. 1976).
62540 F.zd 102, 115-16 (3d Cir. 1976).
63396 F. SupB. 842, 850-5I' (D.D.C. 1975).

2gz

UNTVERSI?Y OF PENNSYL1r'/J.'IIA

bonus

in

LAw

nEvIEW

[Vo]' 126:281

in similar cases, and the other factors enumerated

Euans a. Sheraton Park

Hotel . -

-64

The only truly consistent thread that runs throughout federal
couft decisions on attorneys' fees is their almost complete inconsistency. The resulting confused and conflicting stat-e of the larv
has several unfortunate consequences. First, it inevitabiy results
in unfairness to both attorneys and litigants. At present, the
enormous variation in fee arvards cannot be explained in terms of
the diftering facts and circumstances from case to case. Rather, it
reflects the dissimilar manner in rvhich various courts approach the
job of fee setting. As a result, from coul't, to court and from case to
."r., utto*eys and litigants who are similarly situated are subjected
to widely difiering treatment.
The generally arbitrary nature of fee arvards has generated two
conflicting criticisms leveled at the courts. On the one hand, inordinately high fee awards in some cases, and the absence of a
coherent rationale for justifiably large awards in other cases, have
lent support to the sentiments of the Italian proverb that "a lawsuit
is a fruit tree planted in a lawyer's garden." As one commentator
has nored, "the bitterest comPlaints [about the legal profession] from
iaymen fare directed at] the windfull fees and featherbedding that
. their influence
larvyers have managed to perPetuate through .
55
Others, particuiarly members of the public
rvith the judiciary."
interest bar, have contended that fee arvards in certain kinds of
litigation-environmental and civil rights lirwsuits, for exampleoften have been unreasonably low.56 Given the current state of the
larv, both criticisms have merit.
A second consequence of the chaotic state of the law is an excessive amount of litigation concerning the proper fee amount. In
some cases the issue of attorneys' fees becomes more complicated,
and involves more attorney time, than the underlying lawsuit.67 Al-

.

541d.850.
56 Graham, Gue* Opinion on Legal Fees: Fluffryg the--Goldpn Flaece,
-luws
tO-lt iFebruaty, 1SZS). See also Detroit v. Grinnell Corp., 495 F,?d a+8!
Docron
-(zd-Clt
1045'
Inc.,
481
Chas.
Pffzer,
F.2d
v.
fnc.
Pharmacy,
AlBine
1'974);
aOS

ioasSo f3d Cir.).'cert. denied,4l4 U.S. L092 (1973); Eisen v. Carlsle &
r-"o""uti".'ssr F.zil 555, 57L (2d, Cir. L968) (Lumbard, J., dissenting); Illinois v.
"H;-;-& Row Publishen, Inc., 55 F.n.D. 221, 224 (N.D. IU. 1972); Free World
f'ot6ig" Cars, Inc. v. Alfa Romeo, 55 F.R.D. 26' 30 (S.D.N.Y. 1972).
68 See, e,g. Corrllcrr- ron Ponr,:c Ivmnrsn L,aw, Ban a:.rcn're- rsn Scar,rs or
(1976).
Jusrrcr: FiveNinvc Pusuc Ix'rmrsr Lew n'r Avm:ce 321
57See, e.g., Kiser v. Miller, 364 F.-Q.tpp..1.-8q, _131q--17..(P'D.9.-19f_3),^
madifred ib n7*. Kiser v. Huge, 517 F.2cl 1237 (D.C. Cir. 1974) (nearlv half of
tl" tj"tt of paper ffIed ia the case involvecl attorneys'fee issues); National Council

leTll

ATTONWTYS'FEES

293

though larvyers can be expected to assert their fee claims strenuousln
a molre rational and consistent approach rmong the courts rvould
greatly reduce the exisdng necessity of relitigating the ground rules
in each case.
A third conseguence of the existing state of the larv is the
arbirrary and haphazard allocation of legal lesources. It is clear,
for exampte, thai attomeys' fee awards in private antitrust actions
under thi Clayton Act 6s have generally been substantially higher
than arvards in employment discrimination cases under Titie VII
of the Civil Rights Act of 1964.50 Yet in both cases courts are
proceeding under congressionally enacted. attorneys' fee provisions
iesigned to ercourage private enforcement of the undellying statutory policies. one searches in vain for any expression by congress

of thJrelative importance of private antitrust ve$us private civil
rights enforcement. Yet the courts have provided far more atfrac'
die financial inducements for larvyers to rePresent private antitrust
claimants. If judpoents about the relative importance of difiering
sratutory rights are to be made, those judgmene should be made
deliberately by Congress, not unrvittingly by courts in the Process
of fi-dng atto neys' fees.oo
Finally, the high degree of subjectivity involved in _most fee
decisions is unheaithy for both the legal Profession and for the
conducr of litigation. Although In Re Coord'i'nated Pretrial Proceed,i,ngs n aitiuiotic anti,fiust acti.ons (Doughboy Ind,ustries)ot
may be an extreme example of horv much can ride on the courcs
,,overall rating" of an attorney,o2 many courts explicitly consider the
quality of thi attorney's lvork in determimng the amount of the
*e award.og Such considerations are, of course, a double-edged
srvord; several courts aPParentlY have decteased the fee arvard lvhere

the rvork of the attorneys did not meet rvith their approval. In
Freernan a. $anf for examPle, the courc pointedly noted that

v'- Weinberger, q87- F !opP'- 991' 996
of Communi$ Mental Health Qentery aQ^2orn.
National Council of Comm'nitv
ib.6:d-19?i),-i"-ii on other_eroun!,s.
F:zd 1003 (D.C. Cir. 1976) (more ttran
M'#JHAfibenters v. Matthews, 549
relatecl to fee questions)'

ii;iffi tn"-Gu

by attornev

5s 15 U.S.C."tte.ted
$ 15 (1970).

6942 U.S.C. $2000e-5(k) (1970).
text accompanying notes 128-39 lnfra.
01410 F. Supp. 680 (D' Minn' 1975)'
s2See lexl accompanying not* 47-48 supru'
s0 See

a3 eoa e.p-_ Linclv Bros. 3ldrs. v. American Rai[ator & Standard Sanitary
rr^m xTri'r'-q:i'roz. 1i7-18 (3al cir. 1976); Jobnson v. Georgra Highrvay Erpress,
Bros. Bldrs. v. American Radiator
;;'i8"s-F9J}ti, tB (sth'ctu. 1974); lgrdf
I'68'69 (3d cir' 1973)'

S."ttary Corp., 487 F?d 161,
e4408 F.za 1204 (D.C. Ctu 1968).

ffitani;a

2.94

UNMRSITY OF PENNSYLVANIA LAW

&WIEW

[Vo].126r281

"we rvould be less than candid if we failed to note that a significant
aspect of the research required for the prior opinion had to be
the sharpness of tone and
undertaken by this court, and
the assistance available
diluted
submissions
various
approach in
66
attorneys'
wolk in setting
Grading the quality of
fuom counsel."
their compensation creates an uneasy tension between the attorneys'
duty to press their clients' interests vigorously and at times even
contentiousiy before tJre court, and the fear of the attorneys tlat, in
so doing, they may literally pay the price at the close of the larvsuit.
While most lawyers rvili nor pulI their punches, no will most courts
arbitrarily punish overassertive attorneys ot reward favored ones,
those suspicions inevitably witl undermine the confidence of the
bar and the public in the integrity of the judicial fee'setting function.66 Upgrading the quality of the litigation bar unquestionably
is a rvorthwhile objective, but there are other methods not requiring that an attorney's compensation in a particular case turn upon
the impression he or she makes uPon the court.
Even rvhere courts have not expressly evaluated the quality of
the attorney's work, the process of fee setting nonetheless has involved a high degree of subjectivity, either because the courts have
not articulated the basis for their determinations or because of the
high degree of selectivity involved in picking and choosing arnong
almost inexhaustible lists of sometimes conflicting fuctors. This
lack of objective standards and the resulting vulnerability of the
courts to the criticism that such arvards reflect "the strong fellorv07
feeling of judges for brothers in the guild" certainly must account,
in part at least, for the view expressed by several courts tlat the
practice of awarding attorneys' fees is "delicate, embarrassing and
disturbing." 08
65rd.1206,
6s I-n rejecting an abando.-ent of the basic American rule regarding attorneys'
f""s- the Supte-J Court was concenoed with, among other things, "the possibility
advocacy by having tle
oi-l *"*t ieing posed to the principlepenof lndspsn6ent
of ttre judge before whom he argues."
of tle attotney flow from the
"r-i"nr
p."ni"U v. Industrial Lumber Co,477 U.S. 116, I29 (1974)- That threat is
f.
greatest rvhere the determination of the court cs..ot be measured. against obiective

standards.
67 Dawson, Lawgers and' Inooluntarg Clients: Attorneg Fees Frcrn Funds, 87
Heav. L. Brv. 1597, 1653 (1974).
68 Milwaukee Towne Corp. v. Loeds, Inc', 190 F.zd 561, 569 (7th Cir. L951),
cert. denied.,34z U.S.909 (1952); sea Dehoit v- Grinnel Corp., 495 F.2d 448, 469
(2d Cir. 1974).

tg77l

ATTOENEYyFEES

295

III. WrrAr IS "R,EASONABIjE,, MUST BT DETTNUINED IN LTCHT OT
rgs SouRcE AND Punposn oF THE CouRt's Pownns
Therviderangeofapproachesthatdistrictcourtshaveapplied
in determining reasonabiJ.ttottt.ys' fees reflects the broad discretion in fixinglees allorved by the courts of appeals' While it is
unquestionatly true that, except in unusuaf circumstances,oo the
disiict court should establish the fees in the first instance,?o its discretion is not unlimited. The concept of reasonableness may not
be susceptible of mathematical precision, but neither is it devoid of
content. The porver of the disrrict court to impose extracontractual
fee obligations derives from identifiable historical or statutory
to
sources, ta tn t polver must be exercised in a manner designed
efiectuate its purposes. Thus, the starting point for determining
rvhat is r r""r6t uble fee must be an examination of the source and
purpose of the cour6' authority to arvard them'
The supreme court made clear in alyeska that federal courts
do not have roving authority to impose fee obligations rvhenever
they deem it appropriate.?l Rathet federal courts must derive their
autioriry from-one of nvo distinct sources: (t) the historic equity

oi ttt. courts 1e irnFose fee obligations in certain definable
iir.o*r*rrces, or (2) a statute authorizing or mandating fee arvards.

porver

A. The Equity Power
In alyesha the courr strictly limited the equity Polver of the
federal courts to arvard attorneys' fees to certain historically recog'
nized situations. Specifi.cally, the Court reaffirmed three bases for
such equitable authority: the common fund, the common benefit,
and the bad fuith rationales.
Of these three equitable bases, the common fund rationale
arises most foequently. It received Supreme Court sanction nearly
a century ago in Trttstees a. Greenough.Tz In that case a bondholder
of the Florida Railroad company sued, on behalf of himself and
8e See, e,g. Doe v' Poelker, 515 F.2d 541, 548 ( 8th Ct-r. 1975)' teo'd on other
grounils, S? S. Ct, 2.39L (1977); Freeman v. Rvan, 408 F.zal 12M,7206 (D.c. Cir.

1968).

?0 In one of ib earliest clecisions on attomeys' fees, the Supreme Court notecl
that the lower court'tas far better means of knowing rvhat-is just and reasonable
tUu" - appellate court can have"' Trustees v. Greenoug\ 1-05 V.S.- 527,- 597
tfSSZt. ii tUe First Circuit has stated, "the lorver clurt. . . has lived with ttre
ttrereforg is more alert to the merits of each request for counsel fees."
"^L "ira
Green
v.'Transitron EIec' Corp., 326 F.%d' 492,496 (lst Cir. 1964).

7t 42L V,S. at 260.
?2 105 U.S. 527 (L882).

296.

UNMnSrcv OF PENNSYLVANIA LAW

REVIEW

[Vol' 126:28I

the other bondholders, the rrustees of a land fund that had been
pledged as security for the bonds, aileging inter ali'a, that the
turte.s were wasting those security assets. The suit succeeded in
bringing the assets within the conrrol of the court. The Supreme
Couit held that the complainant lvas entitled to reimbursement for
his.costs, including his attorneys' fees, out of the fund itself.?3 The
Court reasoned that

[i]t rvould be very hard on [the cornp]ainant] to turn him
ilvay without any allowance excePt the paltry sum which
could be taxed under the fee-bill. It rvould not oniy be
unjust to him, but it would give to the other_parties entitled to participate in the benefits of the fund an unfair
advantage. He has worked for them as well as for himself;
and if he cannot be reimbursed out of the fund itself, they
ought to contribute their due proportion of the expenses
which he has fairly incurred. To make them a charge
upon the fund is the most equitable way of securing such
contribution.?a

The Court in Greenough applied the traditional equitable
principle of unjust enrichment, derived from the larv of restitution,
which postulates that "enrichment through another's loss is unjust
and should be restored." 76 The court's control over the assets that
had been recovered or Preserved gave it jurisdiction to compel the
beneficiaries of the complainant's efiort, who had not been Personally before the court, to confiibute ProPoxtionately to the complain'
ant's costs by charging those costs against the fund.
Three years later, in Central Railroad b Banki'ng Co. of
Georgi.a a. Pettus,Ta the Supreme Court extended the principle by
holding that the attorney has an independent claim to reimbursement from the fund. Several unsecured creditors of the Montgomery
and West Point Railroad Company had succeeded in establishing
?s While allowing tbe compiainant 'tis reasonable costs, counsel fees, charges,
and expenses incurred i" t!,u fqg prosecution oI-the suit," i-d. 537, the C_ourt qreciffcally founil objectionable allowances for "the personal services and private
expenses of the complainant'" Id.74Id, 532. For a discussion of the history of congressional enachnents prescribing ttre taxable costs which routinely can be recovered in the federal courts,
see Alveska Pipeline Serv. Co. v. Wilderness Sody,42L U.S. 240, 2'17-57 (1975).
Those provisions are coiliffed at 28 U.S.C' $$ 192O 1923(a) (1970).
?6 Dawson, Lawgers and Inooluntary Clients in Public Interest Litigotion, 88
H,anv. L. Fsv.849,850 (1975). See also Rrsremcvr or RrsrrrtrrroN $1
(1937): Rpsrersrcrvr or CorcrRAqrs $$ 5, 348 (1932); 66 AM. Jun. 2d Resiitution
ina nrrptted Contrac'ts $$ 3, 24 ( 1973 ).
?0113 U.S. 116 (1885).

AT?ONN.DYS'FEES

t9771

297

that their lien on certain properry rvas superior to the rights of a
cornFmy that had subsequently acquired the property from the
railroad. The Court held that "when an allorvance to the complainant [out of the fund] is proper on account of solicitors' fees, it may
be dade directly to the solicitors themselves rvithout any application
by their immediate client." ?7
The impact of. Central Railroad,, horvever, goes beyond the
simple ptopotitioo that the attorney has standing to assert the client's
claih for fee reimbursement against the fund; the Court held that
the attomey's cause of action is independent of the client's and is
not limited to the amounr that the client is obligated to Pay. In
opposing tfre arvard, counsel for the appellants had argued
that the utmost rvhich the court may do is to charge upon
the properry such reasonable exPenses as complainants
themselves incurred, and became directly and personally
bound to meet; an4 since appellees [the attorneys] have
received from the creditors, specially engaglng their services, all that those cleditors agreed to Pay, it cannot be
said. that the compensation demanded in respect of such
as rvere not Palties, othent'ise than by filing their claims
[agirut the fund] lvith- the register, constitute a Part of the
expenses incurred by the complainants.za

Noting that this asPect of the general question had not been
presented in Greenough,?e the Court proceeded to reject that argument. Acknorvledging that the attorneys had received their conffactual fee from their clients, the Court nonetjreless concluded tfrat
the litigation had confened. value on the othenvise lvorthless bonds
of all the unsecured creditors. As a consequence,
[t]he creditors rvho rvere entitled to the benefit of the
decree had only to arvait its execution in order to receive
the full amount of their claims; and that result rvas due to
the skill and vigilance of the [attorneys], so far as the result
of titigation may, in any case, be referred to the labors of
counsel.so

AccordinglR the Court held that the attorneys rvere entitled to
"reasonable compensation for their professional services
iishing a lien, on behalf of the unsecured creditors." 81
77

rd.

12+2.5.

78rd. \25.
7s

rd.

80rd.126.
8Lrd. L27.

in estab-

298

UNMRSITY OF PBIVNSvLVNIIA LAW

REVIEW

[Vo]' 1261281

Thus, the Court extended the unjust enrichment principle of
Greenough to encompass the efiorts of the attorneys tfremselves.
The efioits of the attorneys conferred a benefit uPon an ascertainable class, and the court's control of the assets Preserved by those
efiorts enabled it to prevent beneficiaries not before the court from
appropriating the benefits without incurring the costs. In *rat re$ict,- Central Railroad, was a logical extension of the restitution
principles ot Greenough.
- The Supreme Court then proceeded, in a conclusory frshion
that has become characteristic of fee alvard determinations, to aTvard
the attorneys a percentage of the proceeds,s2 In so doing the Court
planted the seed which has matured into the lawyers' fruit tree.
As Professor John Dawson has convincingly demonstrated in 6vo
recent articles,8s the proposition that an attorney should. be arvarded
a share of the proceeds of the lawsuit, as a measure of his or her
compensation for producing those results, is a misapplication of the
restirution principles upon rvhich it rests. Certainly an attorney
can conrract with his or her client to be paid upon any mutually
agreeable basis, including a Percentage of the client's recovery. In
Centrat Railroad, however, and in the multitude of common fund
cases which have followed from it, courts are not enforcing con'
tractual obligations; they are creating extracontractual ones. The
courts have jurisdiction to impose such obligations upon nonclient,
nonparty beneficiaries because of their control over the fund against
wfriifr the fee is charged.sa The rationale for imposing such obligations arises from the equitable principle of unjust enrichment.86
821d.128.
supra note 67; Dawson, sttpra note 75.
Even in class action suits, where ttre nonclient beneffciaries of the lawsuit
are zub[ct to tle personal jurisdiction of the court as members of the plaintiff class,
personam qhligations against them
-*t" i"uu been tlswilli:lg to impose binding in
io, uttor"eyr' f"*. The power of $e c_our* to render bqttio_g in personam iudgo" ihe absent members of ttre class, colsi tent- with due-process, depends
-"ot the
Dresence of adequate representatives of the class. Hansberry v. Lee, 3LI
"oon
ds. sz (igao). tu the Djstrict of Columbia Cir-cuit recentlv has held, hoqevgr,
a duty to 'unclertake a stringent and continuing examinatiod' of the
th"
"o*t'h"r
of representation. National Ass'n of Regional Me&cal Progtars v.
"dloo""u
tut"tiurui, Inc., f,51 F.2il 340, 341 (D.c. cir. 1916-) (gmph-asis- added).- The court
ir;ittdi when ttre fee petition is being asserted by t:|e glas5's'serrnssl, or by the
ci""rt-."pt&""tative whJ aftempts to mak-e the absent members of the class xeqponiibl" fot-" porlion of the fee obligation,_the petitioner's interests are adverse to the
absent clas! members, Therefore, neither is an adequate representative for the
ou-or" of imposing an i:r personam iudgment for attorneys' fees against the absent
il"ib"6. SaZ also National Council of Community Mental Health Centers, Inc. v.
Matthews,546 F.2il 1003 (D.9.Cir. 1976). A court, however, need not reach the
ouestion of io p"troou* jurisiliction when it has jurisdiction over the fund and a
fue award ftomlt is not otherwise barred, for examplg bv 28 U.S.C. $ 2412 ( 1970).
85 See text accompanying note 75 supta,
83 Dawson,
84

ATTONNEYS'FEES

19771

29S

The enrichment is unjust, holever, only to the extent that the
beneficiaries have not compensated the cxeato for the losses he or
she incurred. Beyond that, the enrichment*even though it may
have been unanticipated by the beneficiaries*is not unjust at all,
but merely a measure of their legl injury. By arvarding attorneys
a sbare of the danages rvhich exceeds the value of their time and
effort expended, the coults have applied the extraordinary equitable
remedy of fee arvards in a rvay that exceeds its rationale.
Professor Darvson poina out that in every other analogous legal
context the remedy for one rvho has conferred an unsolicited benefit
upon another is limited to the loss he or she incurred in conferring
the benefit.8g Indeed, in the Greenough-type situation the right of
the plaintiff to recover is limited to the costs incurred.s? Yet the
attornen rvhose capacity to confer a benefit upon others is merely
derivative of the client's cause of action, has been treated difierently
by the cour[s and has been allorved not only to recover his or her
loss but to share in the benefits themselves. Professor Darvson
concludes that "[t]here is nothing in the larv of restitudon, or indeed
in the larv of cona'act, that provides either justification or analogy
for the profitsharing privileges that have been conferred, uniqueln

on larvyers." 88
That is not to say, holvever, that the attorney merely stands in
the shoes of the client, or that the attorney's claim necessarily rvill
be measured by the contractual obligarion of the client. An attorney may agree to take a case on a basis that rvill not fuily comPensate
the time uttd .ffott to be expended because of tlle expectation that
the larvsuit rviil create or Preserve a fund for the benefit of a
broader class. To the extent the contract rvith the client affords the
attorney less than the market value of his or her time and efiort,
the attorney has incurred a loss in the course of conferring benefits
88 Darvson,

saPra note 75, at 850'

Ihere is no authority for the plaintiffs, recovery of a share of the otler
beneficiaries' damages ia ad&tion to recovering litigation erpenses.
88 Darvson, flrpta note 75, at 929. Plofessor Darvson nOtes that in some limitsd
s?

coDte.sts

. . . sometimes award an accounting for pT'fft rvithcorreslronding lo_ss. I[his o-ccurs primarily rvhere
of
n"ai"g
i.it**v
and in a jerv types of intentional
il;"t6, oltig"fro* have been violated"
;.rtr ffi tle iotive of deterring tvrongcloi:ag--in such cases is shong enough
;;-'.*61t,,, indeed to requue, taking arvay ail tle profft. In,the situations
-;c5ing.
i" b" .6*ia"red here ill eiements of misconduct arehascompletely
cast on strangers,
Th;;;;a tbat can be said is that succes-sful -litiga{on
wlich tbey retai' for tle quite
uJ* i""uit"ute byllroduct, some benefft
proved
iL to be tleirs'
bas
litigation
the
thii
tu"ton
*moi"ot
original)'
(emphasis
in
ld.552 (footoote omitted)
lr'lestituHon remedies

g00

ANMRSITY Or' ?ENNSyI,-MA LNV

nEvtEW

[VoI' 126:281

upon orhers.so That loss is the measure of the unjust enrichment
,o ,tr. nonclient beneficiaries. \lllhere the courr has jurisdiction to
prevent such unjust enrichment because of its conrrol over a fund,
^rh.
urrorrr.y wili have a claim against the fund for that difference.
In shorr, the rationale underlying the common fund doctrine
supports the plaintifi's recovery of all but his or her share of the
..iout costs incu:red. in conferring the benefi.r upon others,oo and
supporis recovery by the attorney of the market value of his or her
time and effort, to the extent not so comPensated by the client. It
attorney
does not suPPort more. In fact, if the costs incurred by the
fund
exceed the-iota1 benefit conferred (the total amount of the
amount
to
the
limited.
be
recovered or preserved), recovery should
oI the benefit.el
The com'non benefi.t theory, for these PulPoses, is merely a
in
corollary of the common fund principle; it expands the situations
upon
grounded
is
but
fees,
which ,h. .ootr has jurisdiction to award
the same principle of unjust enrichment' Thus, in Sprague a'
Ticonic wat;onit Bank.oz the Supreme Courr extended the unjust
enrichment rationale for awarding attomeys' fees to a case lvhere
in sprague
the piaintifi did. nor actually create a fund. The plaintiff
of
sucJessfully sued the bank to impress a lien upon the-proceeds
In
bonds ttrai fraa been pledged as security for her trust deposits.
tnrst
other
fourteen
lien
for
so d.oing, she also .rtublirh.d a similar
court'o3
depositJrs who were similarly situated but not before the
attorneys'
Nonetheless, the supreme court upheld an arvard of her
that
reasoned
court
The
bonds.
of
the
fees out of the proceeds
..fhe absence of an avowed class suit or the creadon of a fund, as
it were, through state d,eci'si's, rather than through a decree
justice as befiveen a
hardly io".lt;.i1 the power of ,"g"iy in doing
party and thi beneficiaries of his litigation"'o4
8e

Text accompanyi-ng note L67 infra'

99

Btrt see note 73 suPra'

gl DarssoD, s7t\ry rrote 75, at 851'
e2307 U.S. 161 (1939).
03

rd.

163,

that an attoroey who represents
Id. L67. This oft-quoted language-suggests
suit -to pievail thr-ough
a
separate
pl-"Efit
in
lnalles
*U"n
" "l;;;?-;'r*t il
to iollect attorneys' fees from tle plaintiffs of the
i"i\Z&t
s4

"outl"d has yet lgcepted the Supreme--Court's invitation to
""Ai no*"uer,
:',ffiff;"ff-*"tt,
Dawson, wpra p'ote 75, at-917-18. Rather,
f""unt
##;d'rlr;'""--"" rationale iationaie.
w!ep- the- Iosing defendant in fact
applie{
bas
beeq
il"1"-.-* Uenefit
1aw suit, p^xl3shareholder derivative suit. See, e,g,,
il-ilffi;"6"iury of the Co',
396 u's' 375 (1970)'
tfit;flecGc euto-ute

ATTONNEYS, FEES

1s771

301

The common benefit rationale reached full bl0ssom in Mills a.
Electric Auto-Lite Co.ss Shareholders of Elecaic Auto-Lite brought
a stockholder derivative action against ttre corporation, successfuiiy
establishing that its merger rvith another corPoration had been
ainted by misleading proxy statements. Although there lvas no
monetary recovery the court held that it rvould be proper to
charge tire plaintifis' attorneys' fees to the defendant colpolation
because the corporation rvas in fact the beneficiary of the lalvsuit.
The lorver court's jurisdiction over the corPoradon, as in the case
of jurisdiction over a fund, permitted it to prevent the unjust
enrichment that rvould result if the real beneficiaries-all the sharehold.ers-rvere permitted to enjoy the benefits rvithout incurring the
corresponding costs. The Court reasoned that
solicitationt-tt_ot u
[t]he dissemination of misleadilg prcxy
grolP-,' J' I' Case
al-a
pracdced on the stockholders
"d.eceit
Co. zt. Boralz, [3?7 U.S. 426, 432 (1964)], 1nq thg expenses
of petitioners'-larvsuit have been incurred. for the benefit
of ?he corporation and the other shareholders'

to

fees

in such a suit to a plaintiff rvho

"tto*"yr'
in establishing a cause of action is not to
succeeded
has "rooi
saddle the unsuccessful Party lvith the expenses but to

impose ttrem on the class that has benefited from them and
thit rvould, have had to pay ttrem had it brought the suit.oo

Thus, the common benefit rationale is simply a jurisdictional
extension of the corllmon fund docuine. It is not tbe courCs
control over a fund rvhich emfowers it to prevent the unjust enrichmenu it is the court's jurisdiction over the defendant.e? Nonetheless, the claim of the plaintifl and that of the attorneys, arise
from the same principle of unjust enrichment, and the measure of
their remedy-tie litigation costs incurred by the plainti.ff and the
market value of the aitorneys' time and. effort-is conrrolled' by the
that apply to the common fund situation.es
same
PrinciPles

s6396 U.S. 375 (1970).
ss

rd. 392,3Se97.

g?The Supreme Court indicated n Alger,ka-$at-it i-s proper to-impose such an
common beaelt doctrines only-rvhere "[t]he
.*.-*ili"to-ui obtigauon uncler theaccruacy,
anil there [is] reasoa for- conf,clencs
some
rvitb
ffiffi1;ift-tr"E"a
sorye
exactituile to those bene.€tiog."
rvith
sLifted
be
indeetl
;"Id
ffi*tt"';rG
frytt" p]ptt "u S.*. Co. v. Wilderness Soc y, 421 U.S. 240, 264 n.39 ( 1975 ) . ttran
ee No'etheless, courts have been no less incji.ecl in comnon beneEt cases
award attorneys'fees based up-gn tle resulb -achieved-by
l" *r-oo'f-,-J-"i"* tothis
..tn"--t"ro"ttt.
e$ort to_ quantify essgg!{f gt*4!tq beneffts has
At times
& Confectionery Workers Int'l Union v. Rabter,
Bakery
In
tLri""o*rq""".o.

go2 uNI.nsITy or

PENIVSyLVANIA LAW

EEVIEW

[Vo].126:281

The final equitable rationale for imposing a fee obligation that
survives Alyeska is the bad faith doctrine. The courts may assess
as
attorneys' fees for "'willful disobedience of a court order
e0
"rvhen
"
the
or
defendant'
on
the
part of the fine to be levied
iosing parry has 'acted in bad faith, vexatiously, rvantonly, or for
oppt"55io" reasons.' " 1oo In most of the cases that have applied this
ritionale, bad faith was found in the defendant's dilatory or obstructionist conduct during the litigation itse1f,101 although there is authority for arvarding fees based upon the bad faith of the defendant's
conduct that gave rise to the litigation.lo2
The bad faith rationale for awarding attofneys' fees is not based
upon an unjust enrichment principle. Rather, as the Supreme
Cturt has noted, "tJre under$ing rationale of 'fee shifting' in the
bad faith cases is, of course, punitive, and the essential element in
Aiggering the award of fees is therefore the existence of 'bad faith'
ot th" pirt of the unsuccessful litigant." roa Because the purpose of
the award is deterrence, it may be less important to protect litigants
against whom fees are assessed from unnecessarily high fee arvards.
Nonetheless, as in the common fund and benefit Glses' there does
not appear to be any sound justification for awarding the attorneys
time and efiort. It is the client
-or"-thur the market value of their
bad faith, not the attorney.
party's
other
who has been injured by the
335 F.2il 691 (D.c.

cir. 1964), for

example, the District

of columbia circult, in

fees to several union members who_had successfully sueil the
;;;dfu; "ttotiuvrt
leld that zuch fees
alf"J"it g:rion because of the misconiluct of union officials'
"value of the beneffts [qtrordedl to tLe Tnjernational and
Jildt; based upoo
-Id.the
697. Upon remand, the disbict court concluded that the
it"-*"-Uer.nip."
difference between honest and dishonest
;;;;tth" iuccessfr:l lawsuiirvas the2]LL
F. Supg. -34!, 349.51 (D'D.C. 1964)'
rrnio" i""dunbip. Moschetta v. Cross,
As . -u"r*"rient of &is beneftt, the court awarcleil the attomeys l2-5% of tbe
The c3*q9{agPgals affrmeil
;;";;;""1union dues paid by $9 memb-ers.lip.
Int'l Union, 354 F,2d' 504 (D.C. Cir.

n"L""t
1e65

).

".

Bakery & Confectionery Workers

ee 421 U.S. at 258, quoting Fleischmann Distilling Gorp. v. Maier Brerving
Co., 386 U.S. 7r4 718 (1967).
too 42L U.S. at 258-59, quotiw F. D. Rich Co. v' Industrial Lumber Co,, 4L7
u.s. 116, r2g (1974).

roLgss, e.g,, Red School House, Inc. v. OEO, qqgjF. ItpP. lry_X 49q-94
(D- Minn. isZa)i Cates v. Collier, 37J. F. Supp. 1368 (N.D. Ivliss.), offd, 489 F.%l
ieg (5rh Cir. 1ii73), oacated and' remandzd,-l*z F.zd ql (+h Cir. 1975); Sims
(M.D. Na.), afd',409 U.S.942 (L972).
'0. A-ot,340 F. Supp.691
7Q2See, e.g,,Doe v. Poelker,515 F.zd 5!],--548-(pth Cir. !975), rco'd on
other grounds,g7S. Ct.2391 (1977). Segalso-Hallv. Qole,4I? U.S' 1, 15 (1.973);
Schleii v. Smi&, 160 F.2d 22,25 (D-C. Cir. 1947); Miller v. Carson, 401 F. Supp.
835. 853-5? (M,D. FIa. 1975); Kiser v. Miller, 364 F. Supp. 131I', 1320 (D.D.C.
197'3), afd in part, reo'il i.n part sub nom. Kiser v. Huge, 5L7 F.%d' 7237 (D.A,
Cir. 1974).

losHall v.

Cole, 412 U.S. 1,

5 (1973).

ATTOHNEYS'FBES

Tg77]

303

As long as the atrorney is compensated fully for all of his or her
time, including the extra time necessitated by the opposing Party's
intransigence, it is difficult to perceive lvhy couruel should receive a
rvindfall because of the adversary's bad faith.
B. Statutory Power
Atter Alyeska, in tJre absence of a common fund, a coillmon
benefit, or bad faith, the federal courts do uot have the PoIVer to
arvardattorneys' fees unless such authority has been specifically con'
ferred upon them by the federal statute under rvhich the plaintift
seeks relief. To date, at least sevenfy-five such statutory grants of
authority have been enacted by Congress.lu Almost all of these
Lo4see Federal Contesteil Elections Act $17,2 U.S.C. $396 (1970)i Ac! qf
Nou e1, 19ia (Freedom of Information Act amendmgDtsl- $-t1b](3),,5 U'S'C'
$ 9, 5.lJ:!.9.^$.55!a(g)(.e)
S'sslt"lt+iiB)'ls"pp. V 1e75); Privacv Act of 1e74
$;
Sulshine Act $3, 5 U.5.C.A. $552b(i)
in
iBl iiil":
V
1975)^:-Government
-r-rlZ-Zt:
Worianetr's Compensation Acts 9208, U.S.C. $812(-b) (1970);
ijrlo,i.
Tradlns Comlnission Act of 1974 $ 106, 7 U.S'c. $$-18(f), -(.q)
r'.it"t*
d";;;dit
Packers-anil Stodqvards Act, 1921 $309, 7 U.s.c. $210(f)
ai;. V'ibt5).
ii976i' p"Jl"li" AEricutturat Commoclities Act, 1930 $7, 7 u.S.c.g $$499g(b),
Act of L967, 6, 7 U.S.C.
i"i iiriZO t S"pp. M973); Agriculfural Fair Practices
u.S.C.
dSz,sfosi.l, i"i^(reZo); ria"i vatietv Protection Act $125-,--7
-$2565
M?,6M (1970); Home orvners
tis70l;'B;;,ftptcy Act $r, tt u.s.c. $$ 205,64r,
i.o*-1,i"tot-rbai, rz b.s.c. S1464(d)(B) (1970), as anry1d.gd -bs Financial
Gutouoor Supen'isory Act of L966, Pub. L' No. 89-695, $102(a)'-80 Stat. 1036
ZiS6Ot, National Housing Act, 12 U.S.C. $ L730(m), as amend,ed Dy Financial
i*uto'Uo* SuBervisory Act of 1966, Pub. L. No. 89'695, $ {02(a)' 80 Stat' 1036
f te661, F"d";J Credit Union Act, 12 U'S.C. $1786(o) (1970)' as amended.bvA"i #b.t. 19, 1970, Pub. L. No.'91-468, $1(3),84 Stat. 1010-(1970);-Federa1
ij"porit l"r*"ir"u Ac\ 12 U.-S.C. $181S(n) (!SZo;, as.amenilpil_lu- Financial
torftzutio^ Supervisory Act of 1966, Pub. I:.No. 89-695' $20a-89 Stat. 1036
Co-pq9y Act Amenclmgnts,o! 197q $!0-q@),-Lz U.S.C'
li9oOl; Baak-Holdin!
dzaoZfal (Supn. V 1-975); Clayton Act $4 15 U.S.C. $15 (1970); Cla)'ton Act
(a ff ti.S.C.A. $15c (Supp. 1977), as ameniled by Hart-Scott-Rotlino Altikust
imorovements Act- of 1976, Pub. L. No' 94435, $ 301, 90 Stat. 1394; Clayton Act
S

I-6. 15 U.S.C.A. $26 (1976), as amend'ed by Hart-Scott-Rodino Antitnrst Improvet'lo. 94435, $302(3), 90 Stat. 1396; Federal Trade
1976, pub.

-"o'tr e"t of

L

Commission Ac:-1975 Amendments $202(a), 1.5 U.S.C. $57a(h) (SupP. V 1975);
Unfair Gompetition Act $ 801, t5 U.q.C' $ 72 (7970); Securities Act -of- 1933 5\ 11,
15 U.S.C. $ ZZt<(e) (1.970); Trust Indenture Act of 1939 $ 323' 15 ]J.,S-.C. $ Tirnvry
(a) (1970i: Seduriues Exchange Act of 1934 $$ 9, 18, 15 U.S.C. $$ 78i(e)' 78r(a)
ifbZbl,.Tervelers'Uabillty Act (Gold ancl Silver Articles) $1(b)' 15 U.S.C. $298

iUt. ii,i. (d) (1970); National Trafic ancl Motor Vehiele Safetv Aet of 1966
ifrf.'iS-U.S.C. $1400 (1970); Tzuth in Len&ng Act $408(a), 15 U.S.C. $1640
ia) iSupp. V 1975); Consumer Leasing Act of 1976 $ 3, 15 U.S.C.A. $ f66"/b
tSitpp. tilZZ); Fair Creilit Repo{ing Ac! $ 60},-15 U.S:C.. $$ 1681(n), (o)--(1970);

SouJ Ctu&i Opportunig Act $503, 15 U.S.C. $1.691(e) (Supp. V 1975), rcdiisnated as $ fesfe(a) and amenilpd by Equal Creclit Opportunig Act Amendof 1976, Pub. L. No.9+239, $6,90 Stat.253 (1976); Motor Vehicle
-"ot"
Information and Cost Savings Aet $$109,409, 15 U.S.C. $$1918, 1989(a)(2)
(Supp, V 1975): Consumer Product Safety Commission Improvements Act of 1976
dA toiul, (b),'i5 u.S.c.A. $$2059(e), 2060(c) (Supp. 1977); Consumer Proiluct
Sieuy Att'$6-23, %, 15 u.s.c. $$2072, 2073 (supp. v 1.975), as amendcd. bs
Consumer koduct Safety Commission I:mprovements Act of 1976 Pub. L' No.

304

UIVIYEASITY OF PENNSYLVA.TVIA

LM NEVIEW

[VOI.126:281

statutory fee provisions confel the right to lecover attorneys' f€es
upon the pa;ties themselves, rather than upon the attorneys.106
Iriost of these provisions leave the question rvhether to award attorneys' fees to the discretion of the court,1oo although some make
the award of attorneys' fees a mandatory Part of the statutory
remedy;10? s66s authorize fee arvards, in the discretion of the court,
g4.2u,$$10(c)'(d),90Stai.503(1976)-;-.HobbYhotectionAct$3'15U.S.C.
Trade Improvement
i;idt' id";": f is75); ra"go*oo-Moss Warrantv-Federal
1, L7
1e7-5)-;
V
u6.c.
$'ssro(a)
rr5liTsl,
O
-cogryebJs {ct $
-(-s-"pp..
aid amenilcd' bv
lo!'.L'-t!o'9+55s,
u:i.i.-$1i6i1bzol, rcdesisnbted as $-50-5
e itir.'s si^t.-2541'Og76it Organi"ed Crime Control Act of 1970 $901(a)' 18
it.S.C. Sfe6aic) ifSZO); O-oit* Crime Control and Safe Streets Act of 1968
School Airl Act $ 718, 20 U-S.C.-$ 1617
iilria'ib n.Sb.'S sfzo (ieZo); Emergency
ii'*i. v 197.5); Ameri"*-Moi".o Cha*i"al Convention Act of 1964 $5,22
iJ:Str S\Tid-ii'(tg70); Intemational_Cll'I1_settlement Act of 1949 $4, 64 Stat
r'-iibiof (.,rtrunt version at 22 U.S.C. $ 1623(f) (1970)); Act of June 25, 1948

,lt

ii

lF":G;Jfo* Ctaims), clr. O4A,62 Stat. 984 (1948) (current vgniqn at 28 U.S.C.
Labor
i z6?e ?rsiol ); Nor#-LaGuardia Ac!.$.7,. 2q U:q.g.-$ lm,(e)- (1910); Fair rsTi)i
u's.c. $s16(b) -(s-"qp.v
it"ii*ar a"ie"d-u"ts of, 1974, $6(d)11), 29
i61"G netirenent Income Securitv $ct of 1974 $ 502: 29 U.S.C. $ 1I'32.(g)

(Sffi:V igtti;

State and Local Fiscal Assistance Amenilments

of 1976 $71b),

Comii-ffs.c.A. $ 1t44(e) (Supp. 1977); Longshormen's and Harbor Workers'
i"-"rtior-e"i Amenilmens-if 19lz $$13, 15,33 U.S.C. $$928, 933 (Supp. V
iSTSl; f"d"tal Warer Pollution Control Act Amendments of 1972 $$ 505, 507' 33
Researcb, and
u.i:i: s$iaos(a), rsoz(") (Supp. v 1975); Marine Protecuon,
$1al'5(e)(4) (supp. v 1e75); Deeps;;uali* Act'of'Ie7z $105,33 u.s.c.
U.S.C. $ 1515(il)- (Supp. V r9Q); Pa!g$
i*t"iF"'t Act of 1974 $ 16(d), 33 (1970);
Safe Drinkire Water Act $1449(d),
i"ti"n"-uot Act $ 1, 95Ij.S.C. 9285
Social Sg-curif.Act $.2o6,-42 U.S.C-. $406
At3.C. $300r'-8 (Supp. V 1975);
rrszbi, c1*n rijr Act-$:12a, 42 u'S.c. $1857h-2(d) (1970); voting Riebts Act
.L-"".ii.eott of 1975 5402,42 U'S.C. $19731(e) (Supp. V 1975); Civil Rigbts
2, 42 V.S.C.A. $ 1988 (1976); Civil Rights
Gtt"""tt Fees Awards Act of 1974 $ gg2000a-3(b),
2000e-5(k) (1910); Atomic
u.s.c.
706,
42
e"i*'reo+ $$s04
so"t*Act of-i954 $1,42 U.S.C. $2184 (1970); Fair HousiagAct of 1968 $819,

Zz tii;.C. $3612(c) (1970); Crime Control Act of 1976

$ln(b),42

U.S.C.A.

SsZOOt"l(i)(B)'(1976); Noise Control Act of 1972 $ 72, 42 V.S.C. $491.1(d)
iS""". V 1975); Na6onal Mobile Home ConskucHon and Safety Standards Act of
iszi-e 6$. d U.S.c. $#12(b) (Supp' V 1975); Railwav Labor Act $3, 45
u.s.C."$r5-s(p) (1970); Shipping Act, 1916 $q9,46 U,$Q.!8?9 (1970); Conmunieadons Aci of 1934 $$206, 4V1,47 U.S.C. $$206' A07 (L97O): Act of Mar. 3,
iaSZ (di"* holding lanit) $6,48 U.S.C. $1506 (L970); Interstate Co--erce Act
ee s. io. 220.308,-4t7, 49 U.S.C. $$8, 15(9), t6(2),322(b), 908(b), 1917(b)
ii9'iOt.'Natural Gas Pipeline Safety Act Amendments of 1976 $8,49 U.S.C.A.
d fo86u (1976); Housing and Rent Act of 1947, $ 205, 6L Stat. 199 (1947)
irepealeil' 1948); Defense Production Act of 1950, $ 409, M Stat' 811 (1950)

(repealeil 1951).
105 There are few exceptiors' See, e.g', Longshoremen's anil Harbor Wor]<ers'
Compensation Act Amendments of 1972 $ 1.t,-33 U.S.C. $928 (Supp. V f975)
(in in arlministrative proceeding necessitated by employer's controversion of employee's worlsren's compensation claim, reasonable attomeys' fees taxed against
unsuccessf-,rl employer and paiil directly to ttre attorney).
10agss, e.s., Pivacy Act of 1974 $3, 5 U.S.C. $552a(g)(2)(B) (Supp. V
1975); Agricultural Fair ?racHces Act of 1967 $ 6, 7 U.S.C. $ 9305(c) (1970).
!07 gss, e.g., Packers and Stoclcyards 4"t, 1921 $ 309, 7 U.S.C. $ 210(f)
(1970); Bank Holding Company Act Amendments of 1970 $108(e), 12 U.S.C.
$ re75 (1e70).

305

AT?ONNEYS, FEES

rel71

to either party.tot Some allovv them only to parties tvho have "prei,ro6rtantially prevailed" 11o on the merits; several provailed, roe- o,
111 a felv provide for
vide for fee arvards "in the interests of justice;"
fee arvards only in "exceptional cases."112 Almost all are statutory
exceptions to the American rule in that they provide for the taxation
of fJes agairut the opposing part], in addition to any other relief
obtained.1l8

Although these statucory attorneys' fee provisions vary somervhat in their entitlement standards (the circumstances under rvhich
a parry is eligible for a fee arvard), they are virtually identical in
tneir fanguagi pertaining to the amount of the arvard rvhere one is
appropri;t.. tn.y provide that "reasonable" attorneys' fees should
Ue'awiaea. Moreover, they almost never aftempt to define "reasonable." 114
708 gse, e.g., Securities Act of 1933 $ 1'1,-l'g 9.S.C, $ 7.7k(-e) (pJ0);.Emeloree
netireneoi-i;"66e Sequtity Act g 502, Sli U.'S.C. $ 1132(g) (Supp. V 1975).

toosee- a.s.. coDsumer Proiluct safety Act $$23, %, i.5 u.s.c. $$9072, 3072
!-u C^onsllqer-f1o.d9ct Saf-etv Commissign- ImproveiSiBi'

or**a

(Supp. V

gg to(c), (d-),
^ rot. 1,. trti,. 9+284,-Ldio
90 -stet: Lo? (1916).
il'"-f,t--atr|i i6zo,
z.-lr.9r9:^$. aeee(b) (1s70);

c"mmod.iues Acs
[1'
il#;"i'il .iilJii*t Act,
1921 309, 7 u.s.c. $ 210(I) (1970)'

i;;iL;;;d

s%"Ly"'ib

$

of 1974 $S,_5 U.S.C. !-S,rp(C[Z-)-(!l (puOpr y
rezsl; iieia;-'oJ-ufo'-auon Act Amenclmens $1(b)(2), 5 u's'c' $552(a)
(SupP. V 1975).
(4)(E)
' - -rrr i"",
i.g, Consumer R-ocluct-Saf-etv-4ct-!$?2., ?q,-q V.S.S.. $$2072, 2073
bs Pub. L.-No. 0+zW, $$10(c), (d), 90 stat' 507
(Supp.V-i'gitj; i o
LLos,ee,

^*a

(1e76).

'

e.g., PfivaeJ Acr

hotection-Ac! S125,
$i505 (1970);
(_1970).
Fair
Housiog Act of
The
U.S.C.
$285
Inirinseil*t,l"t $1,35
csu+ may award fees
isb"t$812.;t U.S.C. SA'or'g(") (1970); proviiles tlat tle
t"-;B;;;libtpi"i"ug if, it tir" oqilion of the court, the plaintifi is not financially
able to assume bis or her attorneys' tees'
11s A felv of tihe attomeys' fee provisions enable courts to award reasonable
fees out of the recovery rather than from the opposing party.. See

riz

patent

See, e.g,, Plant Varietv

LU.lq'

^ttornevsf
1=8 (1950) (current
bl;;;d""rt btai-" Senlement Ait of 1949 $4 64 Stat. Chamizal
Convention
;;tu, uii,Z U.S.C. 91623(f) (1970)); American-Mexican
25, 1948, 62 Stat. e84
of

l.une
A;t;ti.964 $5,22 U.S.C. 9277d-2L {19i0);__Ac!(1970)).
These ferv e4cep{ons
Tfgagl (a'ieni version at 28 U.S.C. $2678
than tbe other statutes in tlat -they
ilJ# td-proceed from 3 &fferent PrFmiqs
tte amount that attorneys can recover ftom

;ifttii " doit" to conhol statutorily
American-Mexican Chamizal Conven6on Act of
ti"it "U""tu. For erample,totbe
in addition tle fee award, that it shall be a misilemeanor for
rgeZ
".ouiao.
to cJrarge ttreir clients more than 109 of the award. 22 U.S.C. $ 277d-2-L.
;t6;;tr
footnote bave been amencled to remove the fee
'1[" ot[".

trvo stitutes cited in this

aivard provisions. They retain the fee limitations, horvever, See, %2 U,S.C.
sroza(i) (1970h 28 U.S.C. $2678 {1970),- -Thrs, these provisions are not
Jt"t"toty'.tt.Btions to the American rule qt 4I, bqt rat-her are statutory controls
tti" coniactual rigbts of attorneys and their clients.

"po"114 flee recent enacbrents proWile rvelcome exceptions to that general nrle.
see consumer hocluct safety commission Improv_ements Act of 1974 L5 U.S.C.A.
$ZOfS(")(a) (Supp. 1977); Natural Gas ?ipeline Safetv Act Amen'lments of

306

UNn/EnSITy OF PENNSYII/ANIA LAW

REVIEW

[VoI' 126;281

determining the meaning and dimensions of "reasonable"
attorneys' fees under these statutes, the coults do not have unlimited
discretion. As with the interpretation of any other congressional
enacment, courts must apply this statutory language in the mallner
that will best effecCuate Congress' purpose. But rvhile the courts
have at times looked to those Purposes in deciding rvhether or not
they have authoriry to arvard a fee in a Particular case,116 they rarely
set about the job of fee-setting with a similar appreciation of the
limitations upon their discretion.
Although for many of the statutory attorneys' fee provisions
little legisiative history exists, it is clear from the legislative history
available that the fundamental purpose of these provisions is to
encourage full enforcement of the substantive rights to 'which they
are attached. The statutes are premised upon the proposition that
private enforcement is essential to the efiectuation of the substantive
.tut rtory scheme and that the award of attorneys' fees is essential to
efiective private enforcement.
congress explicitly expressed this purpose in connection with
one of its most tecent enactments of an attorneys' fee Provision-the
only instance in which Congress has enacted legislation dealing solely
rvirjr atrorneys' fee awards. The House Committee on the Judiciary
explained the puri:ose of the civil Rights Attorney's Fees Awards
Act of 1976 116 as follows:

In

1976, g8,

49 U.S.C.A. $1686-e-(!gon. i9ZZ1' The Consumer ftoduct

Commission Tmprovement Act

of

Safery

1976 providesl

IAI reasonable attomey's fee is a fee (A) which is baseil upon (i) the
advice and other legel
;iJ ti-" exrrenclecl by an attomey in providing
,"*i"* in coinection with representing a pe,rson in an action brought
this subsection, and (ii) such reasonable expenses 9s may be in'
""d"r
cott"d by the attomey in the provisio+ of su& sereices, ald (B) rvhich is
--""t"i at the rate prevailing for the provision of similar services 'urith
t"spe"t to actions brought jn the court which is awarding such fee .

15 U.s.c.A. $2059(e)(a) (Supp. 1977)'
Although ttris fomrulation conforrts in part to the approach sugges-teil by m+
Article sea-te*t accompanying notes 14G72 ln!12, it does not account for the risk
see text accompanying notes_ 16&72 iVfra, and-it_leaves a certain
of
"o#"*u"ry,
reeariline tihe prevailing rate to be applied' Hopefully, however, this
r-ti*iv
.tat"tity'i"t"rpretation of -'reasonabld' attorney fees-as far_ as it goes-will provide
,oo," guid*"e to courts tvhich must interpret provisions for reasonable attorneys'
fees found in other statutes. See note 104 sapra'

Corware National Resources Defense Council, Inc' v' EPA, 484 F.2d 1331
Igiil lDith National Resources Defense Counc4 Inc. v. EPA, 512 F.2d
iisr- rsro-Ss (D.C. Cir. 1975). See also Citizens Assh of Georgetown v. Washi"-"too. SSS F.2d 1318 (D.C. Ctu- 1976); Rosenfeld v. Southem Pac. Co., 5I9 F.2d
sfri t'stir- Cir. 1975); United States Steel Corp. v. United States, 519 F.2il 359
(3d ctu. 1975).
11642 U.S.C.A. $ 1988 (Supp. 1977).
ra6

{

lst Cir.

1e771

307

A??ORNEYS'F.EES

The efiective enforcement of Federal civil rights statutes depends largeiy on the efforts of private citizens'
Althougb some agencies of the United States have civil
rights iesponsibilities, their authority a-nd resources are

liilited. in muny instances rvhere these larvs are violated,
it is necessary for the citizen to initiate court action to

correct the iliegatity. Unless the judicial remedy is fulI
and complete, it rvill remain a meaningless right. - Because
a vast mijority of the victims of civil riglrts violations cannot afiord legal counsel, they are unable to Present their
cases to the courts. In authorizing an arvard of reasonable
attorney's fees, fthe Act] is designed to give such persons
efiective access io the judicial Process rvhere their grievances can be resolved according to lal.117
us
Similarly, in its 1975 reenactment of the Voting Rights Act
Congress provided for a private right of action to enforce the Act
and authorized courts to arvard reasonable attorneys' fees to a Prevailing parry. The senate Judiciary committee explained- the purpose of the amendments:

The amendment proposed by S. 1279 rvould authorize
relief to private Parties in suits
courts to grant
righs in covered and noncovered
voting
brought to protect

jurisdictions. In enacting

remedial legislation, Congress has regularly established a {ual enforcement mechanism. It has, on the one hand, glven enforcement resPonsibility to a governmental agency, and on the other, has
also provided remedies to private persons acting.as a class
ot ori their orvn behalf. The Committee concludes that it
is sound policy to authorize private remedies to assist the
of enforcing voting rightg.
process
- Section
40? ailorvs a court, in its discretion, to award
to a prevailing Parry in suits to enforce the
neys'
fees
atto
of the Fourteenth and Fifteenth amendguarantees
voting
enacted under those amendments. .
statutes
ments, and
is
appropriate in voting rights cases be'
Such a provision
and public accommodations
employment
cause tliete, as in
Congress depends heavily
rights
cases,
cases, and other civil
fundamental rights in'
the
enforce
upon private citizens to
means of enabling
a
necessary
v6lved-. Fee arvards are
private citizens to vindicate these Federal rights.

11?H.R. Rrp. No. 1558, 94th Cong., 2d Sess.
us42 U.S.C. $1973, (SuPP. V 1975).

I

(f976)

308

UNTVERSITY

otr PBNNSvLEANIA LAW

nWtEW

[Vol' 126:281

several hearings held over a period of years, the
Committee has found that fee awards are essential if the
Constitutional reguirements and Federal statutes to rvhich

fn

[section 402 appliesJ are to be fully enforced- We find
the efiects of iuch fee awards are ancilliary and incident to
securing compliance with these laws, and that fee awards
are an integrai part of the remedies necessary to obtain such

that

compliance.lle

When applying these attorneys' fee statutes, the Supreme Court
has emphasized that their purpose is to encourage full enforcement
of the underlying statutory duties by assuring that, as a Practical
matter, the private remedy for violation of those duties rvill be
available to aggrieved persons. Interpreting the Purposes of the
a6orneys' fee provision of Title II (public accommodations) of the
Civil Rights Act of 1964, the Court explained:
When the Civil Rights Act of 1964 was passed, it was
evident that enforcement rvould Prove difficult and that the
Nation rvould have to rely in Part upon private litigation
as a means of securing broad compliance rvith the law. A
Title II suit is. thus private in form only. When a plaintiff brings an action under that Title, he cannoc recover
damages. If he obtains an injunction, he does so not for
himself alone but also as a "private attorney general,"
vindicating a policy that Congress considered of the highest
priority. Jf successful plaintiffs were routinely forced to
11g g. ff:sp. No. 295, 94th Cong., 1st Sess. 4A4I G975) (footnote omifteil).
See also S. Rsr. No. 854, 93il Cong., 2d Sess. (L974), teptinted tz [].9741 U'S'
Coo" Co"". & Ap. Nrws-6267 (rebting to Freedom of Infornration Act Amendof iSZ+); S. Rrr. No. 1183, 93d-Cong., 2d Sess' (L974)' rep-inted in U9747
-""G
U.S. bo"" CoNi. t Ap. Nsrvs 6916 (relating to Privacy Act Amendments of 1974);
S. REp. No. 1084 91st Cong., 2d Sess.- (1979), teprinted' l" t1919,1 V.S. CopB
Co".. t Ar. Nsrvi 5519 (reliting to Bank Holding Company Act); H'R. RBp. NoiOCS. SZa Cone..2d Sesi. (fSZZ) (relating to Motor Vehicle Information Act);
H.n'n"t. No.-S2& 91st Cong., 2cl Sess. (1970)' reprinted in tl970l U.S. Cops
CoNc. & Ap. Npws 3592 (relating to Jewelers' Hall-Mark Act); H.R. Rep. No. 159,
93il Cong., Lst Sess. (1973), rrytinteil in [1973] U.S- Coop CoNc. & Ao. Nsws
2719 (re]-a-tinc to Hobby Protection Act); H.R. Rrp. No. 533' 93il Cong., 2d Sess.
(7974\. rwrinted in lL974J U.S. Cope CoNc. & Ao. Nervs 4639 (relating to
f-olovee iletirement Income Security Act); S. Rsp. No. 414' 924 Cong., 2d Sess.
tfifZi. repdnted.inUgTZl U.S. Cooe CoNc. & Ao. Nsrvs 3668 (relating to Federal
'k"t"r'i'oliuUon Contuol Act Amenilments of 1972); S. B.Bp. No- 1146, 91st Cong.,
2d Sess, (1970), rcprinteil inLl9701 U.S. Coos Copc. & Ao. Nrws 5356 (relating
to Clean Air Amenilments of 1970).
A recent piece of legislative histgry pointedly discusses the Algaka decision
anil asserts thai the fee provisions are being passed in part in response. H.R. Rrp.
No.499, 94th Cong., 9il Sess. 18-20 (1976), rcpdnted in [1976] U.S' Cops CoNc.
& A-o. Nsws 2.572, 2588-90 (relating to Hart-Scott-Ro&no Antibr:st Improvements
Act of 1976).

309

A?TONNBYS'FEES

19771

bear their own attorneys' fees, ferv aggrieved parties rvould
be in a position to advance the-public interest by invoking
the injunctive porvers of the federal courts. congte-ss theresimply to
fore enacted the prouisions for counsel fees-not
they
arguments
advance
deliberately
litigantsivho
penalize
in'
encourage
to
broadly,
but,
more
irntenable
be
to
tro.o
to
seek
di.scriminati.on
racial
by
i.njured,
iud,i.cial
d,iaid,uats
relief under Ti'tle II.tzo

upon the legislative history and judicial interPret2tion of
these attorniys' fee provisions, it is evident that Congress had nvo
related objeciives. First, it sought to achieve the fullest possible
voluntary compiiance rvith the statutory duties imposed by providing a ptio"t" iemedy that is readily available. In this sense the
atiorneys, fee provisions act as a deterrent to noncompliance. As
former Secretary of Commerce Blliot Richardson explained. in sup'
port of such provisions in the Freedom of fnformation Act Amendm.n6, "Enforcement plovisions are needed . to cleate a sfrong
and. reliable incentive to overcome the initial bureaucratic resistance
to change that might othenvise Prove to be a crucial obstacle to the
121
prompt and. full achievement of fuir information Practice'"
Secorrd, the availability of an arvard of attorneys' fees enables tjrose
who have been aggrieved by a violation of the statute to vindicate
their righ*, both for themselves and, acting as private attorneys
general, for others similarly situated. In this sense the attorneys'
iees provisions have the avorved purPose of encouraging litigation
Based.

l2oNelwran v. Piggie Park Enterprises, Inc.,390 U.S. 4O0,4Al-02 (1968)
lemohasis suppliecl) (fooUotes omittecl). See ako Alyeska Pipeline Serv. Go. v.
some, if :rot mosf of te
ivtld"t";t S;;'y, 421'U.S. 240, 263 (1975) ("u1der Congless
h-as opteil to- rely
ri"tot"t pt*ii|i"6 lot the allorvance of reasonable fees,

1"3At & private enforcement to implemgj.U'!_lic policy and_to allorv- co'nsel fees
io-"r't" ei"oo..ge private litigation." Id.); Nor&cross v. Board of Eiluc., 412
v.s. 427,428 (1973).
1215. ItEp. No. 1183, 93iI Cong., 2d Sess. (1974), rcpdnteil tn [1974] U.S.

Coop CoNc. & Ap. Ngrvs 6916, 6942. Cf. Fitzgerald v. Uniterl States Civil Serv.
Commb. 407 F. Supp. 380 387 (D.D.C. L975) (a post-Alseska decision c,on6 ZZOf of tle-Veterau heference Act to allotv awards of attorneys" fees
"tr.1rl";
a*pitZ lict of speciffc Congtessional authorization). The Fitzgerald covrE reasoneil
that:
It is particularly in zuch cases tlat the need fo-r agtgrneV{ fees is greatesl
iest dovemment oficials such as the ones iavolvecl here be free to harass
or viiH-;oe disfavored employees, secure in the knowledge that the emolovee rvill eitler be rvholly unable to stancl up for his or her rights because
'oi th" rtugg"ring cost of the prospective fees involved, or, even if the
umployees-is especially courageous and tenacious,

tegil

fi.

bil

will be left with

a

rvhie"h'to virrually all federal employees would be ffnancially

catastroPhic.

310

ANMRSIrrOr

PENNSyLVANIA LAW

REVIEW

[Vol' 126:281

by those \qho are injured under the statute.I22 Moreover, they prooid. *or. equal access to judicial remedies for those protected by
the statute. lfn.y proceed from the assumPtion that the rvealth of
the vicCim should not determine his or her capability to enforce the
particular rights conferred. As Senator Strom Thurmond argued in
inpport of the attorneys' fee provision of the Freedom of Information Act Amendments:
We must insure that the average citizen can take advantage of the law to the same extent as the giant corporations ivith large legal stafis. Often the average citizen has
foregone the legal iemedies supplied by the Act because he
has had neither the financial nor legal resources to Pursue
litigation when his AdrinistraJive remedies have been
exhausted.123

short, statutory attorneys' fee provisions are intended to
achieve the fullest possible enforcement of. the congressional policy
embodied in the underlying statutoly scheme. Reasonable attor'
neys' fees under these statutes ale those lvhich will best achieve that
prrpor.. In fixing fees under these statutory attorneys' fee pro'
iriri6ttr, however, the courts have applied widely varying measures
of reasonableness. A recent unpublished survey of one hundred
forty disrrict court cases involving attorneys' fees iilustrates this
pattern.l2a While the mean hourly rate arvarded by courts under
ihe fee provisions of the private antirrust statutes rvas $lgl in the
.ur., ,oit"yed, the mean hourly rate awarded in the Title VII (employment discrimination) cases surveyed rvas $40.125 A general reiiew of the reported decisions inescapably confirms tfie conclusion
that statutory fee arvards under civil rights, environmental, con'

In

122 Se.e Alveska Pipeline Serv. Co. v. Wildemess SoCv, 42L U'S' 240, 263
/rg7.5):E"atiu- v. Sc[oot Bd. of Eichmond, 416 U.S' 696, 719 a,27 (L974);
N";il;d;. noard of Educ., 412 V.5..427!.42p (1973); Nervman v. Piggie Park
i';;;;k*- Inc.- 390 U.S.400,402 (1968) (per curiam); Hairston v' R & R

;il;;t
, S10 F.zd 1090, 1092 (7th Ctu.- 1975);, Clark v, gryeycqq Jr{1gne Co5r..,
437 F.zd 959 (st} cir. 1971).
#o n s-,ip. 7og, zro-rt'(E.D.-La.7970),.aff-d
v. Metropolitan Life Ins. Co.,409 U.Sr 205, ?lG_11-(1972) (standing
L]. t
"m..irit.g
Act of 1968, 42 U.S.C. 3610(a) ( 1970),
8I0(a) of tle Ci"il Rights_
,""
based on private attorney general rationale)'
gr*t"a"ra";

$

tJ

123 S. IlEp. No. 854 93d Cong., 2d Sess. 18 (1974).
.'Court Awarded Attorneys' Fees:
124 Hellhran,

A

Statistical Suwey

of

One

Hgndred and Forty Recent District court cases Involvinq Attomeys' Fees," ( Project
S"t-itt"a to tle Faculfy of Antioch School of Law, 1975)'
t25 Id. L82. Tbis same discrepancy is eviclent when awards in all ttre commercial cases suweyed are compareil vtith _the _arvards irl qI _ civil dghts- cases
,"*"""a. In the former category, theld.-mean hourly rate awarded was $93; for the
fight, cases, ttrat rate was $38'

"i"it

A?ronNEvs'FEES

Lg77J

311

sumer, and government information access statutes have been substantially lorver than arvards under antitrust, securities, and other
fee statutes involving commercial rights.
This variation reflects a vierv, explicitly taken by many courts,lzo
that statutory fee arvards in civil rights, environmental, consumer,
and information access cases should be lorver than statutory arvards
in more traditional private commercial litigation. This "public
interest discount" has been justified by the courts on the ground
that attorneys have a professional responsibiliry to' rePresent im'
pecunious ciients and nonpecuniary causes and, therefore, they
should not expect to receive the same comPensation rvhen they
undertake such cases. As one court noted:

member of the legal profession has the obligation to
represent clients rvho are unable to Pay for counsel and also
to bring suits in the public interest. While embarking
upon their duties, they should not be motivated by a desire
for profit but by public spirit and sense of duty.127

A

This vierv, horveven and the resulting variation in statutory fee
arvards befifeen private commercial cases and public interest cases,
has several inherent problems. First, courts simply do not have the
authority to assign relative priorities to the statutes Congress itself
has selected. for enforcement incentives. The respective legislative
histories of the private antitrust and Title VII statutes, for example,
contain no suggestion that the policies embodied in the formet are
of greater importance, or deserve more vigorous enforcement incentives, than the policies of the latter. Yet the Practical efiect of
arvarding fees in private antitrust cases that are four to five times
higher than those arvarded in Title VII cases is to make private
antitrust cases financially more attractive to the legal profession,
rhereby creating an economic distinction that is likely to affect the
allocation of iegal resources betleen these types of litigation.
It is precisely this kind of judicial activity that the Supreme
Court rejected in Alyeska. The Court held that the judiciary did
not have the porver to select from the rvide range of national policies
those rvhich rvere of such overriding importance that attorneys' fees
:houid be arvarded to encourage their enforcement. The Court
72BgBs,

e,g.,

So:uza

v. Travisono, 512 F."4 1137, 1140-41

(lst Cir.),

oacded

znd remanileil,-4z3 U.S. 809 (1975); National Resources Defense Council, Inc. v.
EPA, 484 F.zd 1331, i.338-39 (1st Cir. 1973).
127 Gilpin v. Kansas State High School Activities Assb, 377 F. Supp. 1233,

t253 (D. Kan. 1974).

UNrvEnslrv OF PENNSYwANIA LAW

312

REVIEW

[Vol' 126:28I

held that such a determination is a legislative one.128 simiiniarly, if private antitrust enforcement is to be given stronger
..rriio., ihan the enforcement of antidiscrimination statutes, that
judgment must come from Congress, not the courts' In the absence
ft ,i.f, a congressional signal, .o,tttt are constrained to aPPIy a single
standard of reasonableness.lze

The..pubiicinterestdiscount,,suffersfromyetanotherfaulty
of
premise. Stut,rtoty fee provisiols are not enacted for the benefit
perof
class
i*uy.r$ rather, tlley are enacted l9r the benefi't of the
,or,, pror..ted. by tjt" ,tutot"t. They seek to assure that sufficient
legal'resour."r."il be available to enforce fuily ttre right conferred
her
aria tfrat the potential litigants' means rvill not affect his or
abiiity to vindicate those starutory rights. Reducing the fees arvarded
of civic
on the ground that larvyers should be inspired by their sense
cases,
such
of
attractiveness
,.rpo.rJbility reduces the economic
It
available.
thereby resrricting the supply of legal resources made
is tittle consoladon to a victim of illegal job discrimination, who
often
cannot find a lawyer willing to accePt the reduced fees courts
Responsiof
Professional
arvard in Title VII cases, that the Code
bility states that there ought to be a lalvyer rvho will take the case
at less than the normal fee.18o
There are several ironies in the reasoning behind the "public
interest discount." First, it invokes the interests of the disadvan'
taged to justify a policy confrarT to their interests. Deflating fee
.ri"rds because thi class of persons protected by a statute is impoverished. tends to reduce the number of attorneys attracted to
vin6icating the rights of others similariy situated. Second, it afiects
lawyers in inverse relationship to their charitable commitment.
Those lawyers who engage in no public interest legal representation
rvhatsoever are unaffected by judicial admonitions that virtue is its
own reward. Finally it has tfre anomalous efiect of placing a lorver
value on certain cases because they admittedly serve a broader public
interest.181
128

See 42I V.S. at 269.

129

thjs view was recently

tl"

zuggesteil

by the

House- Judiciav_ committee in

Ci.'it Rights Attomey's Fees Alvalds Aq!. Comparing crgl

"oor,""tiJo-irritn
to private antitrust cases, t-he committee stated that "civil dghts-plaintiffs
tinUt
"** be*singleil
out for difierent and less favorable treatment." H'R. Rrp.
,il'oJa-"oi
llo- fSSg, 94th Cong., 2d Sess. I (1976)'
r8o see A3A copr or Pnolsssrouan RrsPonsmrLEY, Errucer. Conspgarror
2-%1, %e,5 ( 1969).
131 gsyesal courts

have seized upon the $2G$30- hourly fee schet'ls provided

criminal cases under &e Crimes and Criminal Procedure 4"t", 18
"opointJ '
(1970), as the appropri{g rate to award fees in civil p,ublic
US.d-S0ObA(d)(i)
'e.g.,
Sottza v. Travisano, 512 F.zd 1137, 1141 ( lst Cir. 1975),
i"!"r*t cases. iee,

fo,

3t3

A"TONNETS'FEES

19771

The tendency of many courts to set fee arvards belorv the
markec value of a laruyer's services in certain types of public interest
crses may reflect the development over the past decade 9f $e public

interest larv movement. Public interest larvyers generally have foregone the more lucrative pursuits of their profession to sewe clients
it .",rr., that cannot or do not secure rePresentation through the
normal market mechanisms. Although these public interest larvyers
have had. a visible impact in recent years,le2 they are literally ferv
and f;ar behveen. The most comprehensive survey to date identified
approximately six hundred public interest laruyers practicing in
*".ty public interest larv centers around the country,l33 gemFared
ryith ihe private bar of about 400,000 larvyers.le The services of the
pro boni bar, rvhich is concentrated in the eastern urban centers,135
simply is not available to most people.l3c
'fo achieve full enforcement of the private righa created by
statutes rvhich include attotneys' fee provisions, the resources of the
private bar musr be brought to bear. But the supply of free or
ieduced-fee legal services available from the private bar is also extremely limited; for any particular Potential litigant, its availability
is largely fortuitous. A random sampling of 1450 lauryers conducted
in tilg-tgl4 revealed that the average laruyer spends only about 27
386 F.
oqcdeilanilremanihd,42S u.s.809_(1975); Reil House school v. oEo'Activities
Sch99l.
Hiqh
S_gt9
v..Kansas
Giln_in
1974);
1ii iisg tD.'Iai"". (D:'Kan. 1974); Sierra CIub v. Lynn,364 F. Supp.
siil. gZ?
Ar;';^
F. Supp. lZ3B,1953
iodtfied,5oZ F.2il 43 (sth cir. 1974); Wvatt v'
iil-Gi'lw.nl't *. P7S\.
'Zro
(N:D:41a. -19?)? gt4 ly.p:!':"'4^r! .part-on
saz,
supp.
n.
saa
sH;G;;
(sth Cir.. 1974).- k_o;fr;;;;";;d"iub iin. Wyatt v. Aderholt, 503 F.2il 1305
See Darvson, &tpto lrate 75, at 906' In
f;;;-D;;;-h* "o,loou,t this vieg'.
tu*o* for rejecting_ a "pubhc interest discount" approac.h,
il'dil;;-ln;thi
lJ"c*mpannog notes 726-3L srqia, it ahould also be noteil tbat attorneys rvho
;i#rk-"-'il;;d"r Ae Crimes ana CrimioA Procedure Act enioy a more or less

by a siople trip to t-he c.ourthogse. Moreover, fees
of
;;;";t;.1;;
"""o regardless of- ttre outcome of the re-presentation. The
",titr i[" a"i are available
yiars ago, have not b-een adiusted for i.flation, see
i;;-i;; ff-*"d n"u.ty seven
i6 U.Si. $SOOOA(a|(f) (1970), aoqc* bo so'nilly criticized as inadequate-even
il td-lilt"d ;";p;r; iliy s"w". They certainly are an inappropriate guideline
[or otler types of

cases.

rgz See CouNqlr,
r33 Id. 3.
1s4

interest

ron Puslrc Iwrrnrsn Li.'r,

swpro note 56,

at

165-215.

Id. !65. The limited resoluces available to the public through publ'g
t"iW"." is further reflected in the $40 million total budget- for 1975 for all

.-.r-Lru*pt irrUlic interest larv centers compared rvith the $1L billion araual
receipts 6f lhe private

gross

bar. Id. 5, 53.

136

Id.

136

The government-fundeil legal- services pro-gr-am

80.

p a !i-qEffc43t- source of
hee lesal repiesentation for those with incomes of less than 12.5% of the poverty
f"-"t *i set iv the Office of Management and Builget. Those services, however,
o.-ri-ply noi available for the vast maiority of Americans rvho are above that
ninimal income level'

3I4

UNMRSITY oF PENNSvLZANIA LAw

REVIEW

[Vol' 126:281

hours of nonbillable time a yeaT orL pro bono trotk and that the
bulk of this time is devoted to matters that do not involve litigation.lg? To achieve Congress' goal of giving all aggrieved persons
the opportunity to enforce certain statutory rights requires that the
e.onomic interests of the legal profession be activated. As a result, public interest cases must be placed on a comparable financial
footing rvith the competing demands for legal services, which compensai atto;neys at the full market value for their services. If this
means that larvyers rvili receive fee arvards somewhat higher than
those a more public spirited bar might accePt, so be it. In the
context of statutory fee awards, lawyers are necessary instruments to
achieve national policies established by Congress.
It might be argued that full enforcement 138 of statutory rights
could. be accomplished by awarding something less than the full
market value of attorneys' services because there is unused capacity
in the legal system. Unemployed and underemployed larvyers, for
example, presumably would be rvilling to take on additional rvork
at something less than tfreir standard rate. It is undoubtedly g1ue
that as the "earnings 8ap" (the difference be8veen the maximum
return for a particular laruyer's time and the return on these cases)
decreases, more and more lawyers will be attracted to them. There
are nevertheless a number of reasons rvhy it rvould be unrvise for
courts to use this rationalization for awarding fees at less than full
market rates'
First, there is no way for the courts to determine the Point at
which fee awards at something less than fulI market rates rvill make
available sufficient legal resoulces to enforce these statutes to the
fuliest extent possible. Indeed, that point, if it exists at all, may
vary from one substantive field of larv to another- Thus courts
would either be drarun into a morass of supply and demand analysis
or revert to arbirrary determinations, which should be avoided.
Second, there is no indication that Congress intended that the
enforcement of these important national policies should rely upon
unemployed or underemployed larvyers. Efiective enfotcement,
13? Handler, Hollingsworth, Erlanger & Ladinsky, The Public Interest Actiuitirgs
of Prioate Prac,tice Laugets,6L A.B.A'J. 13B8, 1389 (1975).
138 It is obviously impossible to measure the e:'tent of the unmet need for legal
areas covered by these statutes since there is no way to
sen'ices in the particular
-not
vindicated or suits not brought. pvery in&cation, however, is
calculate rights
that it is substantial. A suwey of the legal needs of the public conducted by a
soecial committee of the A.B.A., for example, found that of the respondents who
iidicated that they had sufiered from a discriminatory denial of a job or promotion,
1,1% had usecl a larvyer in &e most_ recent occurrence of such discrimination.
only
-Cunnew
& F. Spauonvc, Tlo T.ocan Nssos or rrre Pusuc 83 (1974).
B.

A?TONNEYS'FEES

L9771

315

particularly in more difficult and complex cases, requires the services of experienced attorneys, rvho are less likely to be underemployed- Alrhough there are approximately 400,000 larvyers in
tne United States, the pool of potential legal resources for these
purposes is fur smaller. As a practical matter, most laTuyers are not
iuuil"bl. for these cases because of their lack of interest in or experience rvith litigation, and due to their specialization in other
ireas of the larv. Moreover, even if the risk of nonrecovery is taken
into account in setting the market value of the latuyer's services,13o
many larvyers simply ale unwilling to rvork on a contingency basis,
with the attendant uncertainty and burden of uncompensated costs
d.uring the pendency of a case, rvhich may be unresolved for several
years. fn short, even if there are some additional legal resources
available at less than their fu}l market value, tle concerns for full
enforcement and objectivity in fee arvards suPport the determination
of such atvards based upon full market rates.
It appears, therefore, that the courts do not have quite as much
discretion in setting "reasonable" attorneys' fees under statutoly fee
provisions as many have assumed. They must set fees in a manner
that rvill satisfy the congressional PurPose of achieving the fullest
possibie enforcement of the underlying statute. Furthermo e, in
the absence of a congressional mandate to the contrary, fees must be
arvarded in a manner that does not discriminate on the basis of the
particular statutory right being enforced.
These goals can be accomplished, and at the sar',e time a far
more objective approach to fee setting can be achieved, by compensating larvyers for the time and effort they have reasonably
expended at the full market tate for their services. The attorneys'
fee statutes necessarily reflect the judgment of Congress that the
chariry of the bar is inadequate. Yet by arvarding fees at less than
the fuit market value of the Particular attorney's services, the courts
have not eliminated the necessity for depending upon legal chatity;
they have merely reduced the amount that must be made up by
such contributions.

IV. Fm DlrrnrrtrwauoNs

BASED

ow MemBr Verun

The foregoing analysis leads to the conclusion that regardless
of rvhether the court is proceeding under its equity porver or pursuant to statutory authority, a "reasonable" attorneys' fee is one
that compensates laruyers for the fuil market value of .their time and
!3e $ss

tert accompanying notes 168'72 infta.

316

UNMRSITX OF PENNSILVANIA LAw

REVIEW

[Vo].126:28I

effort. Such a determination can never be reduced to a

neat

mathematical formula; it involves important matters of judgment.
It is grounded, however, uPon a series of factual determinations
that, as many courts have recognized, should be the subject of a
separate evidentiary hearing.lao It entails consideration of most of
the factors listed by various courts,14l but within an analytical framervork that reflects private, time-based fee-setting'142

A. Time

Reasonably ExPended,

As discussed above,la3 the unjust enrichment mtionale of fee
arvards under the equitable theories requires that the time expended
by the attorneys, rather than the results achieved, be the basis of the
fee deterrnination in such cases. Considerations of policy lead to
the same conclusion in the statutory cases. Many of the statutes
that provide for fee awards do not give rise to monetary recoveries.inn It is virtually impossible in such cases to transiate the
results of the lawsuit into quantitative terrns. How does a court
determine the monetary value of desegregated education, or the
right to vote, or access to government information? AIry attempt
to quan tify the results of such cases, and to rervard the attorneys
based even in part upon such determinations, is necessarily an
arbitrary exercise.ls Yet to arvard attorneys' fees only in cases that
140The Supreme Court inclicated tbat- in the context of fee arvards under $4
of the Clayton Act, 15 U.S.C. $15 (L970), an evitlentiary hearing is appropriate.
p;tld* st*a"td Oil Co.,399 U.s. 222,223 (1970) (per curiam). A number
".have recognizeil tLat an evidentiary hearing is req$ryil wheuever facts
of
"ourts to the feJ award are in dispute. See, e.g., National Treasury Employees
nertainins
F'2il 3L7,322 n.18 (D.C. Cir. 1975); Iho.q! v. Honevbrook
t"i*l."Nixon,521
Mines, rnc., aia p.za 98L 988-89 (3d cir. 1970), cert. Qenied, 40L u.s- 911

(1g71j. TLe ]ower court sbould be required -to-state-its ffndin-gs of fact and conifuiorir of law. See, e'g., Monroe v. Board of Co--'rs of ]ackson, 505 F.2d 105,
109 (6rll Cir. 1974)j J.;'dy Bros. Bldrs. v. American Radiator & Stanrlard Sanitary
Corp., +g r.2il 161; 169-170 (3d Cir. 1973).

$ss text accompanying notes 772.L77 infra.
Fees are also set in t:he marketplace on the basis of a contingent percentage
of the recovery; however, private fee arrangements whi_ch proceed on that basis
are not an appioprjate model for courts to use in setting fees. See te.xt accompaaying notes 83-89 supta,143'52 infra.
143 See text accompanying notqs 72-98 supra,
r44see Newman v. Piggie Park Enterprises, Inc., 390 U.S. 400 (1908) (per
curiam) (discussing Title II of the Civil Rigbts Act of 1964).
1ar !!s .lifRculty in attempting to measure quantitatively the beneffts of inL+L
142

iunctive relief. even in private antitrust acHons, is well-illustrated by the third
'Cit"oit" efiorLto do so in Merola v. Atlantic Riol€eld Co.,515 F2d 165 (3il Cir.
1975). Because the Third Circuit had taken the position that a "'ne-based fee
award should be adjusted, inter alia, to reflect the recovery obtained, sss T;ndiy
Bros. Blclrs. v. American Radiator & Standard Sanitary Corp., 487 F.zal 1.61 (3d
Ctu. 1973). it felt compelled to remand tbe fee question in Merol.a. for a determination of thJ monetary value of a settlement that required the oil company defendant

317

ATTONNEYS'F.BES

te771

produce monetary recoveries is to engage in precisely the discriminatory priority setting that is beyond the authoriry of the courts.la6
Even rvhere there is a monetary recovery "[a]nchoring the
analysis [to time expended] is the only rvay of approaching the
problem that can claim objectivity." r*z Horv does a court decide
rvhether the attorney shouid receive b/o ox 25/o ot 26!o ot the
recovery? As we have seen,1a8 th.e rvide range of choices that courts
have made, even in simiiar cases, strongly suggests the essentiaily
arbitrary nature of "percentage picking." The difierence of even
a singie percentage of a large recovery however, can have a substantial impact upon the fee recovery.lae There can be no
rational justification for the ensuing rvindfall or loss based solely
on the court's arbitrary selection of a convenient percentage.
Moreover, the premises implicit in arvarding attorneys' fees
based upon a percentage of the recovery, inflating the hourly rate
based upon results, or arvarding a bonus based upon the result,
are questionable. Such a praccice assumes a direct relatioruhip
be6vien the size of the recovery and the attorneys' efforts, rvhich is
not alrvays the case. As one court has noted, "[a] point is reached
rvhere the amount of the plaintifi's recovery is unrelated to services
of counsel. The large amounts involved do nor add. to the complexiry of the problems, increase the responsibilities of counsel or
iequire greater capabilities 6f s6ulNsl." 160 Even in cases involving
sm;Uer iecoveries, damages may follorv directly once liability is
established, rvith as much skill and efiort required to produce the
first dollar as the last. No court has yet suggested that rvhere an
attorney recovers less than expected, a Part of the pre-arranged fee
should be refunded to the c1ient.151
to alter its sewice station leasiog policy to lorgthen the guaranteed Period of the

i.Lo.

fn" court of app-eals described the benefit_it sought to be quantified
:Lr]gl;;
as the "limitation of opportunities for coercion"' 515 F.2d at 170'
1'48 $es text accompanying notes 128-29 supra.

City of Detroit v. Grinnell Corp., 495 F.zd M8, 47A Qd' Cir. 1974).
wpra.
1ae !!s problem is uo difqent analyticaly if the court seel<s to rervard the
attoraey for ihe results achievecl by igfla{ng $e hourly rate by some_ multiplier,
a bonus to the regular fee based upon tbe recovery. The court is
tv
14?

r48 gss note 34

"" iaced
"ddins
rvi-th tle arbitrary task of deciding
still

tle

appropriate relaHonship of

tle

fee

to the recovery.

160TWAv. Hughes,312 F. Supp.47B,484-85 (S.D.N.Y. t970)' modifed' on
other grounds,44g F-.zd 51 (2d Cir. 1971), reo'd on othet grounib,409 U:S. 363
( 1e73).
161 fle difficulHes in athibuting the results to the aHomeys' efforts are further
comoouaded by the presence of co-counsel or several larv ffsns representing various
olaiiufis. as rvill often be t.he case in complex class action cases' See, e,g., City
if plil"detplia v. Chas. Pffzer & Co., 345 F. Supp. 454 (S.D.N.Y. 1972).

318

UNIVERSITY OF PENNSyLVANIA LAW

REVIEW

lvol

126:281

Trvo other considerations argue against lee arvards based upon
results even in statutory cases. Unlike the common fund situation,
attorneys' fees in statutory cases are not paid out of the recovery.
Rather, they are taxed against the defendant in addition to any
other judgment against him. The damage recovery reflects the
court's measurement of the legal wrong to the plaintiff. But the
defendant has not violated any duties to the plaintifi's attorneys.
The statute imposes upon the unsuccessful party the obligation to
pay for the urrong done to the plaintiffs, as prescribed by the statute,
plus a sufficient attorneys' fee to provide the necessary enforcement
incentive. It does not impose upon the defendant rhe obligation to
pay, for example, I20% of the statutoriiy appropriate damages so
that the attorney can share in the consequences of defendant's
I{rong to the plaintiff.
Finally, awarding attorneys' fees based uPon resula fundamentally misconceives the role of the larrryer. A lawsuit is not an
investment in a uranium mine in which the lawyer is a co-venturer.
Rather it is an attempt by the plaintiff to obtain redress for a legal
injury. To this endeavor attorneys contribute their time, advocacy
skills, and professional judgment-not their capital. Fully compensating the attorneys for the time they have invested is therefore
not only sufficient to provide the necessary incentives, but addi"
tionally is consistent with the function of lawyers to bring disinterested professional judgment to their cause.x62
1i2 Fee calculations based upon results have been justiffed by some based upon

a difierent concepfion of the lawyer's rvork. As one court stated: "The value of a
js
larvyer's services-is not merely-measured-by time or labor.'Ihe qractice-of latv
io which suecess depencls as much as in any other art on the application of
"o ".t
sometimes insniratign;1q1$e--syblect matter-" Arenson v. Boarcl
imagination-anil
of irade, 372 F. Supp. 1349, 1356 (N.l- il. 1974) (citation omitted). The
Iea,iling pioponent of tbis vierv has been Professor George Hornstein w-ho_has argued
for awiids based on the percentage of recovery. See Hornstein, Legal Therapetnics:
The "Saloa4e" Fac'tor in Counsel-Fee Aoards,- 69 Henv. L. Rrv. 658 (195€).
?rofessor H6rnstein argues tJrat "lo]ne t]rousanil plodding hogrs may be far less
productive than one imaginative, brilliant hour. A surgeon rvho skillfully performs
ln appendectomy in seven minutes is entitled to no smaller fee than one who takes
an hour; many a patient rvoulcl t}ink he is entitled to more." ld. 660.
Several tiringi can be said in response to these arguments. AJthough it is true
that a thousana plodding hours may be lsss productive ttran one brilliant hour, the
thousand ploddirg hours are usually a prerequisite to the single brilliant one. fti
any case, 1o the extent one lawyer is more creative or effcient than another, that
wiil ultimately be reflected in Lis or her market rate. As for the analogy to the
deft surgeon (puttilg asicle tle- question w-hether tbe_,pricing mechanisms of ttre
meclical-profeslion are the moilel to rvhich rve_ should aspire), the relationshiir
between iime e4lended and &e beneffts provided is far more tenuous in me&cine
than law, particularly in the spbprofession kofessor Hornstein has chosen for his
jllustration. It migbt be added that surgfons receive their fee,,albeit occasionally
fronr someone other than tJre patient, whether or not the operation.is successful.

319

ATTOENEYS'FDES

r9771

The starting point for caiculating a fee that compensates the
attorney for the value of his or her time and efiorL is a determination of the number of hours justifiably expended. A court is not
bound by the claim asserted by tJre larr.yer. Muny courts have
properly recognized their obligation to scrutinize the hours submitted by the attorney to assure that the time expended rvas not
unnecessarily duplicative, or indeed, not expended at a11.x53 As one
court noted that "[t]he Court may discount the number o[ hours
counsel has submitted in its lop, if the Court determines, based
upon the facts, circumstances and legal issues in the case, that the
hours expended lvere unnecessary unrelated or involved duplication of activity." 154
Several considerations should be borne in mind by the courts
in revierving the hours submitted by the larvyers. Several coults
have engaged in u'holesale markdorvns of the time assertedrvith little
or no explanation of rvhy time rvas disallorved.lFs The purpose of
judicial revierv is to assure that the time claimed rvas in fact expended and rvas necessary to a vigorous Prosecution of the claim.
It is not a device for discounting the fee arvard on other grounds.
Thus, to avoid any suspicion that revieru is being used to Pursue
unrelated ends, and to give guidance-both to the lavyyers rvho are
before the court, and to those rvho are not-as to precisely rvhy the
ciaim rvas excessive, courts should specify rvith particularity the
hours tJrat are disallorved. The courts should also allorv hours expended on unsuccessful claims, unless they are clearly frivolous.
16ssee, e.g., Joh:rson v. Georgia Highrvay Express, Inc., 488 F.2d-714,7L7
(Sth Cir. fgZal-t;o"rt refuseil to eompensate attorneys for '--e spent by trvo or
t!."" Ia.nuers in the courtroom 'when one would have suficeil); Stanford Daily r'.
ziocher. ?N r'.n.p. 680, 683 (N.D. cal. \974), affd., 550 F.zd 464 (9th cir.
fS?Z); LiDdv Bros. Bldrs. v. American Railiator-&.Standar-d S."i!qy Qorp" 38.2
r. sriip. 990, 1004-14 (E.D_. Pa. 1974), oacoted, 5!0 F'zd 102 _(3d cir. 1976).
of course, reguire ttrat _attorneys keep complete and rvell-clocumented time
filir .i,i4'Several
cOurts have reftrseil to compensate time for rvhich there was no
records.
detailed records. See, e.g., In re Meacle Land & Development Co., 527 F.zil 280,
284 (3d Cir. 1975); In re Roustabout Co., 386 F.2il 3I4, 355- (3d Cir. 1967) (per
curiam), The consequence of inadequate time tecords is illushratecl by Davis v.
Board bf School Comm'rs, 526 F.zil 865 (5th Cir' 1976)' a school desegregation
case in rvhich the court, disallorving some of the time asserted by the attomeys,
citeil as an example of e.xcessiveness twenty-sir hours spert by h1o attorpeys 'ieviervins a seven lineirder of this court ilenying a stay peniling application for cefiorari
to-the Suoreme Court." Id. 868-69 n.3. It is, of course' possible to imagine horv

hventy-sii hours coulcl be justiffably erpendedl in reviewing

tle

legal and strategic

*oruinuo"o of a denial of suih a stay; horveve-r, the -attomeys' failure to specfy
horv frey sllent that time gave t-he court no basis for concluding that it 'rvas
necessary.
154

Uliteil Fedh of ?ostal

(D.D.C. 1e73).

rir

See note 4L suPra.

Clerl<s

v.

Unitecl States, 61 F.R.D. 13, 19 n.16

320

UNMRSITY OF PENNSYLVANIA LAw

HEVIEW

[Vo1.126:28I

Although several courts have not follorved tfris course in cases
brought under the antitrust statutes,166 nothing in the language of
the statutes compels this result.15? On the contrary as one court
has noted, "courts should not require attorneys (often lvorking in
new or changing areas of the law) to divine ttte exacr parameters
of the cour6' wiilingness to grant relief." 168 Courts should be
rvary of interfering too deeply in the strategic judgments made by
a litigator. Time should be disallowed only if it reflects duplication, padding, gross overstaffing, or if it was spent on clearly frivolous

c1aims.16D

lsoBowl America, Inc. v. Fair Lanes, Inc.,299 F. Supp. 108Q 1100 (D. Mcl.
1969); Union Leader Corp. v. Newspapers of New England, 218 F. Supp. 490,
491-92 (D. lvfass. 1963), ceft. ilenied,379 U.S. 931 (1971); osborn v. Sinclair
Reffning Co.,2Ul F. Supp. 856, 864 (D: Md. 7962), rco'd' on other grounils, 324
F.2d 566

87&79

(4tI

(7tl

Cir. 1963). Brr see Locklin v. Day-Glo Color Corp., 429 F.zd 874
Cir. 1970), cert. d.enied,400 U.S. 1020 (1971); TWA v. Hughes,

312 F. Supp. 478, 483 (S.D.N.Y. L97O), modi'fed on oiher grounils,449 F.zd 51
(2d Cir. l97l), redd. on other grounds,409 U.S. 363 (1973).
16? The Clayton Act, for example, merely provides that a person injurecl under
the antitnrst laws shall recover 'threefold the damages by him sustained, anil tho
cost of suit, including a reasonable attorney's fee." 15 U.S.C. $ 15 (1970).
rrs Sbni[oral Daily v. Zurcher, 64 F.R.D. 68O 0S+ (N.D. CaL 1974), oflld,
550 F.zd 464 (gth Cir. i.977). In a reecnt Title VII case, the court, which granted
relief to the plaintiff on one of bis eight counts, rejected tl-re contention of the
defendant ttrat the fee award shoulil be similarly prorated, pointing out that "tle
policy underlying the fee provisions of Title VII is best serveil by encouraging
plaintiffs to seel< tle broadest relief &ey feel, in gooil faitb, they are entitled to."
Palmer v. Rogers, l0 Empl. Prac. Dec. |JLO,499 at 6130 (D.D.C. 1975) (citation
omiiteil).
16e ffi6s1 courts whictr have considereil tle question have recognized the riglrt
to recover attorneys'fees for tle rime spent litigating tle fee issue itself, both to
prevent &e defendant from effectively defeati4g enforcement of tle statute by
erecting costly barriers to the fee recovery and to enable the court to make its
deterrrinarion of fees on the basis of a full examination of the facts. See, e,g.,
Rosenfeld v. Southern Pac. Co., 519 F.2il 527, 53G31 (gtl Ctu 1975); Miller v.
Amusemeot Enteqrrises, Ine., 426 F.Zd 534, 539 (sth Cir. 1970); Stanford Daily v.
Zurcher, 64 F.R.D. 680, 684 (N.D. Cal. .1974), afd., 550 F.2d 464 (9th Cir.
L977). But see Lindy Bros. Bldrs. v. American Ra&ator & Standard Sanitary Corp.,
540 F.zd 102, 110-11 (3il Cir. 1974) (time qpent on fee applicarion in a common
funcl case disallowed). Courts also have generally awarded compensaHon for time
q)ent on appollate proceedi::gs. Seo" e.g., Perkins v. Standard Oil Co., 399 U.S.
222,293 (1970) (per-curian); Ward _v_. Kelln 515 F.cli 908, 912 (5th Cir. 1975).
The Supreme Court has noted that- "[t]he, amount of ttre awaril for lappellate]
services shoul4 as a general nrlc, be fxed in the ffrst instance by tlJ bttrici

€ourt."

Perktus

v.

Standard

Oil Co.,399 U.S. 222,223 (1970) (per curiam)

(citation omitteil). But see note 69 supra & accompanying text
Finally, even where courts are acting pursuant to statutes which permit awards
only to "prevailing" parties, the district court has disc.retion to award fees "incident
to the ffnal. dispgsition of interim matters." Bradley v-. School Bd., 416 U.S. 696,
72.9 (\974): The Supreme Cgurt-zugg9stgd in Brudleg ttrat "the entry of anf
order that determines substantial rights of the parties may be an appropriate occasion upon which to consider the_propriety of aa award of cou::sel fees. . . .- Id.
72%23 n,28, See also Mills v. Eleckic Auto-Lite Co, 396 U.S. 375, 496-97 (1970i.
Such a practice recently was endorsed, _in qppropriate circumstaDces, by
the Horue
-Fee
Awards
Judiciary Committee in connection urith the Civil Rights Attorney's

A?ronNEYS',FEES

1W7"!

32L

B. The Hourly Rate
The court must determine a value for the attorney's time that
rvill place statutory fee cases on a competitive economic basis and
that rvill compensate attorneys in eguitable fee cases for the loss
sustained in creating the appropriated benefit. For laruyers engaged
in customary private pmcticg rvho at least in part charge their
clients on an houriy basis regardless of the outcome, the marketplace
has set that value. For these attorneys, the best evidence of the
value of their time is the hourly rate rvhich they most commonly
charge their fee-paying clients for similar legal services. This rate
reflects the training, background, experience, and previously demonstrated skill of the individual attorney in relation to other lanryers
in that community.
Special factors in a particular case may afiect the rate an attorney charges a private, fee-paying client; correspondingly, it is appropriate for the court to account for the presence of such unusual
circumstances rvhen it is setting the fee. Thus, if the laruyer is significantly departing from his or her field of expertise, a lorver rate
may be justified.rso Unusual time consnaints reasonably imFosed
by the case or the client may push the rate uprvard. The impact of
a particular representation on the laruyer's practice may influence
the rate-one lvay or tfie otier. A particular$ unpopular cause may
risk the loss of other clients, rvarranting a higher rate, rvhiie a case's
potential to atnact future business may rvarrant charging the client
less. To the extent any of these factors are ptesent in a case requiring the court to fix a fee, the best evidence of horv the marketplace
rvould account for the presence of such a factor is to look to instances rvhere the particular larvyer rvas faced rvith similar circumstances in private practice. In the absence of such experience, tJre
court can look to the experience of other larvyers similarly situated
in the communitY.lol
Act of 1976. The Committee

,stated

that "[s]uc] awards pendente lite are par-

ticularly imBortant in protraetecl litigation, where it is difficult to predicate [iic]
rvith any certainry &e clate upon rvhich.a ffnal order will be entered." H.R. !rp.
No.155& 94th Cong.,2d Sess' 8 (1976).
100 Lalvyers engagecl in a litigation practice ordinarily do not vary their rates
to fee-Baying clients depen,li.g upon the subjqc! matter of tbe litigation. A larvyer
.*uho sieclalizes in tax planning, horvever, woulil-or4inarily not be able to c.hargi a
clientior liHgating a non-tax matter at the rate'n'hich reflects his or her tax pla.ii.g
skill and experience. See, e,gu Johnson v. Georgia Highway Express, Inc., 488 F.2cl
214. 7f8-19 (5th Cir. 1974); Lindy Bros. 3ldrs. v. Americao Ra&ator & Standaril
sanitary coti.,487 F.2d 161, 167 (3il Cir. 1973)'
to1 The burden of proof on market ratg as in the case of other iszues involved
cases and
in settiog a fee, rests lvith ttre, petitioner-the plaintifi in most statutory-burden
the
the larvyer in most common fund or benefft cases. To sustain that

922

UNIVERSITY OT PENNSYLVANIA LAW

REVIEW

[VOI.126:28I

In valuing the time exPended, there is no reason rvhy the defendant in a statutory case, or the nonclient beneficiaries in a fund
case, should support "overlawyered" lawsuits. If some of the activi'
ties involved in the litigation manifestly could have been conducted
by a iawyer rvith less experience, or even by a paralegal, the co.urt is
justified in compensating that time at a reduced rate.162 To the
extent that activities such as research, routine pleading or motion
preparation, brief or memorada writing, or document and transcript
review could have been performed by a less experienced lawyer, the
court can comPensate this time at the market rate for a mole junior
attomey. Some activities, such as settlement administration or document abstracting, may be compensable at the prevailing market rate
for paralegal time. The administrarion of justice rvould not be rveli
served, howeVer, by a judicial determination of the precise skill levei
required for each hour asserted.lo3 Broad categories should suffice.
In deterrrining the value of the attorney's time, a somervhat
different situation is presented rvhen the attorney does not have a
customary hourly rate set by the comPetitive marketplace. This
will be the case when the attorney's normal Practice is the contingent fee arrangement, or rvhen the larvyer regularly provides legal
services on a noneconomic basis. This latter group would include
a salaried attorney for a litigating organization or an attorney who
ordinarily subsidizes otherlise unrePresented clients and causes by
charging less than demonstrably could be obtained for the services
were the lanryer to act in a more "economically rational" manner.
fn such cases, the PurPoses underlying fee awards can best be
fuIfiIIed by basing the fee upon the full market value of the legal
Iarvyers involvecl can submit their orvn afidavits setting forth the hours expended
.rvho have an hourly rate set by the marketon each activity and, for those lawyers
for similar professional services. Where t"be
charged
commonly
rate
most
olace. the
itto*"u does not have a rate estabDshed by the marketplace, afidavits from other

la*veri of similar skill and erperience in the community should be submitted'
Tuclicial e:rrperLise rvill obviate the need for erpert testimony on this question. See,
b.e., Tlrrnbirg v. Tranberg 456 F.zd 773, I75 (3d Cir. 1972).
!62 gsB, e,g., City of Detroit v. Grinnell Corp., 495 F.Zd M8, 47L QA Cfi,
1974); In re Coordinated Pretrial Proceedings in Antibiotic Antitrust AcHons, 410
F. Suno. 680. 695 (D. Minn. 1975); National Council of Community Mental Health
Centeri, Inc.-v. Weinberger, 387 F. Supp' 991, 996 (D.D.C. Ig74), rco'd' on othet
grounds sub nom, National Council of Community Mental Health Centers v.
t{attews. 546 F.zd 1003 (D.C. Cir. 1976). InWeinberge\ $upra' the court noted
in the context of. a fee determination in a case handled by a sole practitioner that
"his rvorlc was at many different gradations of professiorral responsibilify and no
flat rate can reasonably be applied to his work as a whole." 387 F. Supp. at g96.
f-n more complex cases, stalfed by a team of lawyers- rvith varying levels of erlreritime spent by eactr Iawyer will ordinarily reflect more nearly the
encg, the
""toal
shll required.
tss See Lindy Bros. Bldrs. v. American Ra&ator & Standard Sanitary Corp.,
54A F.zd LOz, LI6-L7 (3d Cir. 1976)'

7s771

A?TONNEYS'FEES

323

In the statutory fee arvard case, where the
objective is full enforcement of the underlying substantive right, a
market value fee arvard to a nonprofi.t litigating organization or a
reduced profit public interest laruyer simply enables such resources
to be made more rvidely available to others rvho rvish to assert the
same rights. Even if the private bar is comperuated at market rates
for such cases, these iitigating organizations and pubiic interest
laruyers rvill continue to provide the specialization, freedom from
conflicts'rvith private clients, readiness to take on unpopular causes,
and 'rvillingness to carry the costs of protracted cases that is indispensible to full enforcement.
This result involves no unfairness to the defendant against
rvhom fees are assessed; as befiveen defendants, the identity and the
fee arrangements of the plaintifis' attorneys are totally fortuitous.lGs
It rvould, horvever, be fundamentally unfair to arvatd fees based
upon full market rates to attorneys rvho ordinarily seek to maximize
their economic return-a result rvhich is essential to enlist their
services based upon economic self-interest-rvhile at the same time
arvarding something less than ful1 market value to attorneys rvho
forego some of their earning capacity by representing clients rvho
cannot afford adequate representation. To do so is to penalize those
attorneys for their public spiritedness. It seems clear that Congress
intended that cases arising under statutes rvith fee provisions rvere
to be removed from the charity rolls, regardless of the identity of
the attorney. As one court stated: "Congress certainly intended any
arvard under the statute to be reasonable by traditional standards.
It did not look, like Lear's jester, to the breath of the unfeed [sic]
larvyer, but considered that the prevaiiing litigant should be able to
pay the laborer the rvorth of his fui1s." 106
services provided.l@

e.g., National Treasury Employees Union v. Nixon, 521 F.2d 317,
(D.C,Cir. 1975); Tillman v. Wheaton-Haven Recreation Assh., 517 F.2d
LI4I, 114748 (4th Ctu. 1975); Hairstot v. R & R Apartnrents, 51.0 F.2d 1090,
1092-93 (7th Ctu. 1975); Wilderness ,Soc'y v. Morton, 495 F.2iI 1026, 1037 (D.C.
Cfu. 1974), rco'd on other grounds sub nom. Alyeska Pipeline Serv. Co. v. Wilderness Soc'y, 421 U.S. 24A (J375); Fairley v. Patterson, 493 F.zd 598, 606-07 (5th
Ctu. 1974). But see Hoitt v. Vitek,495 F.2d 219,22G'21. (Lst Cir. 1974) (court
arvarded attomeys' fees to the private attomey rvhile denying an arvard of fees to
Nerv Hampshire Legal Assistance because "[t]he policy of encouraging future
representation rvas secured by the arvard lto the private attomey]." Id: 2r]..
r84 See,

522-9.3

rgs See NaHonal Resources Defense Council, Inc. v. EPA, 484 F.2d Lggl, 1gg8

n.7 (Ist Cir. 1973).

IIL

(8.D. La. 1gZ0),
v. American Marine. Corp., 320 F. Supp. 799,
437 F.ziI 959 (sth Cir. 1971). For an erpression of similar viervs, see Millei
v. Amusement Enterprises, Tnc., 426 F.2,d,534 (sih Cir. 1970) ("Coneress diil not
intend tlat vindication of statutorily guaranteed rigbts would deBend on . . . the
availability of legal assistance from charity-in&vidual, collective or organized.,'

afd

160 Clad<

rd. 539).

324

UNM&SITY OF PENNSYLVANIA LAW

REVIEW

[Vol' 126:281

The attorney is entitled to "the rvorth of his hire" under the
equitable rationales as rvell, regardless of what, if anything, the client
has agreed to pay or rvhether the iawyer sometimes or always provides legal representation at less than its fuIl market value. To the
extent that the fee obligation of the client is less than the full market
value of the larvyer's services, the lawyer is sustaining a loss that is
compensable under an unjust enrichment principle. The measure
of that loss, and the extent of the beneficiaries unjust enrichment,
is the difference between what the iawyer could have charged for the
time and any fee received. The fact that in other situations the
larvyer does not charge all that he or she could does not alter the fact
that the opportunity to sell the time devoted to ttrat parricular case
at its fuIl market value has been lost.16?
In order to establish a market value for the services of a Iarvyer
who does not have an hourly rate set by the marketplacg it is necessary to look to the rate charged by comparable attorneys who do.
That is not to say that every such lawyer is entitled to the highest
rate for legal services in the community, or even the highest rate
charged by his or her contemporaries. Rather, it rvill be necessary
for a lawyer so situated to demonsrrate the prevailing rate in the
communiry for larvyers of similar experience, professional background, reputation, and skill rvho are engaged in cases of similar
magnitude and complexity.

C. The

Ri,sh

of Nonrecovery

Unless an attorney has some agreement with the client guaranteeing compensation regardless of the outcome, the attorney rvill
receive no fee in the event that the suit does not succeed in some
manner.168 In these cases counsel bear the risk that they ryill not
be compensated at all for their time and efiort. The experience
of the marketplace indicates that lawyers generally rvill not provide
16? The attorney is entitled to no more than the full market value of his or her
time ancl effort, Thus, where the attomey receives a contracfual fee from his ctent
which represents tle reasonable value of his or ber serrrices, "[t]he fee laward]
woulil go [initially] to the attorneys, who would t]en reimburse t]eir client."
National Treasury Employees Union v. Nixon, 521 F,zd 377, 322 (D,C. Cir. L975).
However, lvhere counsel has represented the client at a reduced rate because of his
or her betef that tle case furthers ttre public interesg "tLe District Court should
award lthe attorneys] zuch additional amounts labove what they received from t]eir

elient] as are Decessary to bri:og the compensaHon up to reasonable va]ue." Id.323.
10s Urder ttre equitable tleories, there can be no fee 4sra1d rrnl65s a fund is

created, recovered or preserved"-or a be_nefft-is confer:ed, Most of the attonreys'
fee statutes authorize or require fee awards only to a pa*y who has in some manner
prevailed" either ttrrougb iudpeg!,_ settlem_enf or_volu:rtary comptance by the
6ther party. SeeH.R. Bre. No. 1558, 94th Cong., 2d Sess., 6-8 (1976).

19771

ATTOnNEYS',FEES

s2:5

legal representation on a contingent basis unless they receive a
premium for taking that risk. Ordinariln rvhen larvyers undertake
a representation on a contingency basis, they bargain for a percentage of the recovery. That percentage is sufficiently high to
compensate the larvyer not only for the reasonable value of the time
he or she anticipates devoting to the particular lalsuit, but also for
the time devoted to other larvsuits underraken on the same basis
but unsuccessful in result. Thus, in a rough and arbitrary rvay, the
contingent percentage fee accounts for the risk'of nonrecovery.
For reasons already discussed" 10e the percentage-of-recovery approach
is inappropriate rvhen courts are setting fees. Nonetheless, the risk
o[ nonrecovery must be accounted. for if these cases are to attract
laruyers. Courts can account for this risk by making one additional
inquiry. The court initially looks to the hourly rare for comparable representation rvhere compensation is guaranteed. In adjusting that basic hourly xate where compensation is not guaranteed, the court should attempt to assess the likelihood of success
at the outset of the representation-the point at rvhich the laruyer
is confronted rvith the decision rvhether to take tJre case, and, if so,
underlhat fee arrangement. In making this inquiry courts should
consider "any information that may help to establish the probability
of success." 170 The Second Circuit has outlined the inquiry as
follorvs:

The tangible factors rvhich comprise tfre "risk of litigation" might be determined by asking the follorving questions: has a relevant govemment action been instituted or,
perhaps, even successfuily concluded against the defendant;
have related civil actions already been instituted by others;
and, are the issues novel and. complex or straightforrvard
and rvell rvorn? Thus determined, the litigation risk factor
might rvell be translated into mathematical terms.l?r
As the Second Circuit suggests, each of ttre elements of the fee
determination ultimately must be reduced to numbers. Obviously,
Lso See

text accompauying trotes 83-9L, 143-52 supro.

Lindy 3ros. Bldrs. v. American Racliator & Stanclard Sanitary CoIp.,
487 F.zd 161, 168 (3d Cir. 1973). See also Lindy Bros. Bldrs. v. American
Railiator & Standard Sanitary Corp., 540 F.2il 102, 117 (8il Cir. 1976); City of
Dekoit v. Grinnell Corp., 495 F.zd 448, {lL (2d' Ctu. 1974); Stanford Daily v.
Zure-her, 64 F.R.D. 680, 685-80 (N.D. CaI. 1974)' aflid,550 F.ztl 464 (9th Cir.
aro See

Le77).
1?1

Cib, of Deboit v. Grinnell Corp., 495 F.2il 448, 47L (2d. Ca. 1974).

326

UNMRSITY OF PENNSyLVANIA LAW

REVIEW

[Vo1.126:t8I

there is no precise rvay to quantify the likelihood of success (or risk
of nonrecovery), particuiarly since the courl is standing at the finish
Iine and assessing the rvay things looked at the starring gate. Nonetheless, it is theoretically useful to think for a moment about rvhat
a court would do if it rvere possible to determine precisely the
likelihood of success at the outser. If the court rvere to conclude
that there was no realistic chance of losing at the inception of trre
case, the risk of nonrecovery rvould be zero, and the basic hourly
rate should not be adjusted. If the court were to conclude that
there was an even chance of success at tre outset, it rvould in efiect
be saying there was a fifty percent risk of nonrecovery. A larvyer
rvould have to take fi.vo of these cases on a contingent basis to receive
one fee. Accordingly, if risk lvere to be fulty compensated, the
larvyer rvould be entitled to rwice his basic houriy fee.
As a practical matter, however, a courL can do no better than
to reach one of a ferv general conclusions concerning risk. If,
viewed from the perspective of a reasonable atrorney looking at the
case from its outset, success rvas virtually assured, there has been
no significant risk and there should be no adjustmenc. If the court
concludes that success was more iikely than not at the outset, an
increase in the fee arvard in the range of fifty percent rvould be
appropriate. Where the court concludes that the chance of success
rvas about even at the outset, an increase in the hourly rate in the
range of 100/o appears appropriate. Finalln if the case appeared
unlikely to succeed rvhen initiated, an increase of the basic hourly
rate of up to 200/o may be justified to compensate rhe attorney for
the substantial risk undertaken. Beyond that, any artempr to guantify feigns illusory precision and may greatly exaggerare the fee
arvards in the least likely cases.
Trvo other points should be made rvith respect to accounting
for risk. First, there is no necessiry of applying a risk multiplier to
the time expended in obtaining a fee award afrer the suit is successfully concluded and the arvard is assured. Nor is there any risk
associated rvith post-sectlement administration of a fund. Second,
ir should be stressed that a risk factor need only be applied to nonguaranteed time; to the extent that the attorneys are guaranteed
payment by a contracc 'with their client, there is no risk of nonrecovery.172
1?2For exa:nple, if a lawyer rvho brings a class action case that produces a
common firrd has been guaranteed by_ the named- plaintifis co-p"os"tioo or $g0
per hour regardless of th-e- outcome,- and th_e tarvye_ro market rate i $100 pur hd*,
the risk multiplier should be applied only to the 970 per hour that rvas not

guaranteed.

ie77I

ATTORN.DYS'FEBS

V.

327

Coxcrusroru

The approach to fee setting suggested by this Article-hours
justifiabiy expended, multiplied by the auomey's marker rate, mulriplied by the risk of nonrecovery-provides courts rvith a coherent
analytic framervork for applying the factors rhey have traditionally
considered in fixing fees. In determining the time reasonably expended, the court accounts for the time and labor required and, in
large measure, the noveity and difficulty of the issues. In applying
the marketplace rate for the laruyer's time, rvith appropriate adjustments for unusual circumstances present in a particular case 1?s and
for "over-lalvyering," rz+ 1ls court accounts for skiil required, the
customary fee, the time limitations imposed, the experience and
abiliry of the artorneys, the undesirabiiity of the case, and the
nature of the professional relationship ivith the client. Finalln in
determining the risk of nonrecovery the court takes into account
the contingent nature of the fee.1?5
Certain of the factors traditionally considered by the courrs are
deliberately rejected. The most important of tirese is the monetary
amount involved in the litigation and the results obtained. Their
inclusion rvould not refl.ect sound larv or sound policy.l?6 The
court should also exclude consideration of the preclusion of other
employment; if larvyers are compensared fully for their time, the
fact that they are not doing something else is economically irrelevant. Consideration of arvards in similar cases is also rejected
because this factor is little more than a post hoc rationalization for
the result otherrvise achieved. Finally, the court should not account
for the quality of the lan'yer's rvork, except to the extent that the
larvyer's time is cleariy excessive.171
The approach outlined has several distinct advantages. First,
and most important, it attempts to satisfy the under\ing purposes
of fee arvards, both in rhe statutory and equitable context. Second,
it is a uniforrn approach that can be applied rvhenever the court is
tasked rvith fee-setting, in conrrast to the current tendency to travel
difierent paths in different cases. Third, rvhile it necessarily leaves
the district courl rvith important questions of judgment,us it ret73 See
\74 See

tert

accompanying notes I60-OL supra,
J,62-63 supra.
r75 $ss tant accompanying notes 168-72 supra.
176gss tert accompanyiing notes 83-97, 143-52 supru,
777 $ss text accompanying notes 6l-68 supra.
178 ['_q1 example, +le court must determine if the time claimed
was necessary,
if the rvork could have been perforsreil by a person wjth less expertise, *d rut ut the
Iikelihood of success was at the outset of the suit.

ts\t accwpaDying notes

328

UMyBnSIry OF PENNSy.LVdNIA LAW

REVIEW

[Vol.12B:281

to a series of essentially factual questions, the answers to which can be reviewed by appellate courts as
well as by laruyers and litigants:
duces the fee determination

l.

Horv much time did the atrorneys justifiably expend on

the lawsuit?

2. What is the hourly marker rate of the particular lawyer
for similar legal services? If the particular atrorney has no such
market rate for these services, what is the rate for lawyers in
the community with similar experience, background, skill and
reputation who handle cases of similar magnitude and
complexity?

3. What was the risk of nonrecovery at the outset of the
litigation?

Finalln another significant benefit of this alternative approach is
that it provides an analytical consruct for rational thinking where
confusion and arbitrariness have prevailed.

